<html>
<title> - STRENGTHENING REGIONAL INNOVATION: A PERSPECTIVE FROM NORTHEAST TEXAS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                   STRENGTHENING REGIONAL INNOVATION:
                   A PERSPECTIVE FROM NORTHEAST TEXAS

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 14, 2009

                               __________

                           Serial No. 111-50

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
51-927                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. McCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY


                            C O N T E N T S

                           September 14, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bart Gordon, Chairman, Committee on 
  Science and Technology, U.S. House of Representatives..........     7
    Written Statement............................................     7

Statement by Representative Ralph M. Hall, Minority Ranking 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     9

                               Witnesses:

Dr. Cary A. Israel, President, Collin County Community College 
  District
    Oral Statement...............................................    13
    Written Statement............................................    15
    Biography....................................................    19

Dr. Dan Jones, President, Texas A&M University-Commerce
    Oral Statement...............................................    20
    Written Statement............................................    22
    Biography....................................................    24

Mr. Patrick Alan Humm, P.E., Chairman and President, Hie 
  Electronics
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    28

Dr. Martin Izzard, Vice President and Director, Digital Signal 
  Processing Solutions R&D Center, Texas Instruments
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    36

Mr. William C. Sproull, Vice Chairman, Texas Emerging Technology 
  Fund Advisory Committee
    Oral Statement...............................................    45
    Written Statement............................................    47
    Biography....................................................    49

Mr. Tom Luce, Chief Executive Officer, National Math and Science 
  Initiative
    Oral Statement...............................................    50
    Written Statement............................................    52
    Biography....................................................    54

              Appendix: Answers to Post-Hearing Questions

Dr. Cary A. Israel, President, Collin County Community College 
  District.......................................................    64

Dr. Dan Jones, President, Texas A&M University-Commerce..........    65

Mr. Patrick Alan Humm, P.E., Chairman and President, Hie 
  Electronics....................................................    66

Dr. Martin Izzard, Vice President and Director, Digital Signal 
  Processing Solutions R&D Center, Texas Instruments.............    67

Mr. Tom Luce, Chief Executive Officer, National Math and Science 
  Initiative.....................................................    67


 STRENGTHENING REGIONAL INNOVATION: A PERSPECTIVE FROM NORTHEAST TEXAS

                              ----------                              


                       MONDAY, SEPTEMBER 14, 2009

                   House of Representatives
                       Committee on Science and Technology,
                                                      McKinney, TX.
    The Committee met, pursuant to call, at 9:00 a.m. in the 
Ceremonial Courtroom, Collin County Courthouse, 2100 
Bloomindale Road, McKinney, Texas, Hon. Bart Gordon [Chairman 
of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

 Strengthening Regional Innovation: A Perspective from Northeast Texas

                       monday, september 14, 2009
                          9:00 a.m.-11:00 a.m.
                          ceremonial courtroom
                        collin county courthouse
                              mckinney, tx

1. Purpose

    On Monday, September 14, 2009, the Science and Technology Committee 
will hold a field hearing in McKinney, Texas, to examine the importance 
of regional innovation centers to the U.S. economy and global 
competitiveness, and the roles of Federal, state, and local governments 
in supporting such centers.

2. Witnesses


        <bullet>  Dr. Cary Israel, President, Collin County Community 
        College

        <bullet>  Dr. Dan Jones, President, Texas A&M University-
        Commerce

        <bullet>  Mr. Patrick Humm, President, Hie Electronics

        <bullet>  Dr. Martin Izzard, Vice President and Director, 
        Digital Signal Processing Solutions R&D Center, Texas 
        Instruments

        <bullet>  Mr. Bill Sproull, Vice-Chairman, Texas Emerging 
        Technology Fund Advisory Committee

        <bullet>  Mr. Tom Luce, Chief Executive Officer, National Math 
        and Science Initiative

3. Overview


        <bullet>  In recent years, a growing consensus has emerged 
        regarding the importance of science, technology, and innovation 
        as the key driver of long-term economic growth and improved 
        quality of life in America. Technological progress fueled by 
        investments in research and development (R&D) is estimated to 
        be responsible for as much as half of U.S. economic growth 
        since World War II.

        <bullet>  In response to a request from the leadership of the 
        House Science and Technology Committee, the National Academy of 
        Sciences issued a report in 2005 highlighting these linkages. 
        The report, led by former Lockheed Martin CEO Norm Augustine 
        and titled Rising Above the Gathering Storm: Energizing and 
        Employing America for a Brighter Economic Future,\1\ emphasized 
        the challenges facing the U.S. economy as a result of 
        globalization and recent technological advances, stating: ``A 
        substantial portion of our workforce finds itself in direct 
        competition for jobs with lower-wage workers around the globe, 
        and leading-edge scientific and engineering work is being 
        accomplished in many parts of the world. Thanks to 
        globalization, driven by modern communications and other 
        advances, workers in virtually every sector must now face 
        competitors who live just a mouse-click away in Ireland, 
        Finland, China, India, or dozens of other nations whose 
        economies are growing.''
---------------------------------------------------------------------------
    \1\ http://www.nap.edu/catalog.php?record_id=11463.

        <bullet>  The report recommended that the Federal government 
        renew its focus on and support for research and development and 
        science, technology, engineering, and mathematics (STEM) 
        education as a policy priority. Congress, led by House S&T 
        Committee Chairman Bart Gordon (D-TN) and Ranking Member Ralph 
        Hall (R-TX), responded by passing the ``America COMPETES Act'' 
        (Public Law 110-69), comprehensive legislation aimed at 
        strengthening the Nation's scientific and technological 
        enterprise in order to ensure it continues to lead the world in 
        innovation and remains competitive in the 215 Century global 
---------------------------------------------------------------------------
        economy.

        <bullet>  Specifically, the America COMPETES legislation placed 
        Federal investment at three key agencies that fund basic 
        research on a path to double within the near term, and provided 
        support for STEM education, authorizing multiple grant programs 
        aimed at helping educate current and future teachers in math 
        and science and education.''

        <bullet>  In addition to the renewed focus on strengthening 
        U.S. economic competitiveness through science and technology at 
        the national level, there is also a growing interest in 
        improving understanding of and support for the innovation 
        ecosystem on a regional scale. The Council on Competitiveness, 
        a Washington, D.C. think tank, has studied regional innovation 
        as a driver in enhancing national competitiveness, concluding 
        that:

                 ``National policies and national investment choices 
                have much to do with the growth and capacity of the 
                American economy. For innovation, however, the real 
                locus of innovation is at the regional level. The 
                vitality of the U.S. economy then depends on creating 
                innovation and competitiveness at the regional level. 
                In healthy regions, competitiveness and innovation are 
                concentrated in clusters, or interrelated industries, 
                in which the region specializes. The nation's ability 
                to produce high-value products and services that 
                support high wage jobs depends on the creation and 
                strengthening of these regional hubs of competitiveness 
                and innovation.'' \2\
---------------------------------------------------------------------------
    \02\ From the report ``Clusters of Innovation: Regional Foundations 
of U.S. Competitiveness''; http://compete.org/publications/detail/220/
clusters-of-innovation-initiative-rectional-foundations-of-us-
competitiveness.

        <bullet>  To this end, the Federal government has a strong 
        interest in promoting innovation based on regional strengths. 
        While the aforementioned Federal investments and policies such 
        as funding for R&D and STEM education-are critical, State and 
        local governments, as well as higher education and industry, 
        also play key roles in fostering a robust regional innovation 
---------------------------------------------------------------------------
        environment.

        <bullet>  The Council's final report identified the following 
        factors and elements as most important to building and 
        maintaining effective regional innovation foundations that 
        advance U.S. competitiveness: \3\
---------------------------------------------------------------------------
    \3\ http://www.compete.org/images/uploads/File/
PDF%2OFilesrCoC_Reg_Found_national_cluster.pdf.

                1.  A strong physical and information infrastructure is 
                a baseline requirement to establish and sustain a 
                prosperous regional economy: Good quality roads, 
                highways, airports, railroads, water, and power support 
                the efficient movement of people, goods, and services 
---------------------------------------------------------------------------
                as well as the quality of life of citizens.

                2.  A strong K-12 educational system is important for 
                developing local talent and attracting outside talent: 
                The quality of K-12 education is growing ever more 
                critical because it establishes the baseline of talent 
                for entry-level jobs and the pool of specialized talent 
                critical to cluster development. It also helps in the 
                recruitment of individuals and companies.

                3.  Universities and specialized research centers are 
                the driving force behind innovation in nearly every 
                region: Although companies and individuals do create a 
                large number of innovations, universities and research 
                centers institutionalize entrepreneurship and ensure a 
                steady flow of new ideas.

                4.  Specialized talent and training are more important 
                than abundant labor: It is not abundant low wage labor 
                that attracts innovative companies, but rather highly 
                talented, specialized, and often expensive labor.

                5.  Government can have a significant influence on the 
                business environment, both positively and negatively: 
                Government at all levels influences the business 
                environment through policies and services that 
                influence factor inputs, context for firm rivalry, 
                demand conditions, and related and supporting 
                industries.

                6.  Poor coordination among local jurisdictions impedes 
                efforts to improve the business environment: Regional 
                economies encompass many political jurisdictions. 
                Efficient coordination among them is important for 
                maintaining and improving physical infrastructure 
                (e.g., road, airports, water ports, communications 
                systems), creating strong K-12 education, offering a 
                business-responsive political environment, and 
                promoting cross-cluster collaboration.

    4.  Additional Background: Relevant information on the demographic, 
economic, and innovation environment of the Dallas-Fort Worth 
metropolitan area and Collin County

         About the Dallas-Fort Worth metropolitan area:\4\
---------------------------------------------------------------------------
    \4\ Adapted from information compiled by the Dallas Regional 
Chamber of Commerce: http://www.dallaschamber.org/
index.aspx?id=DFWFacts.

                `  Has a workforce of more than 3 million people and is 
                a national leader in population gains and job growth 
---------------------------------------------------------------------------
                (1st and 3rd, respectively, in 2007).

                `  Has a gross metropolitan product of $315 billion, 
                making it the 12th largest metro economy in the world.

                `  Has the second lowest cost-of-living among the 
                country's ten largest metro areas.

                `  Headquarters of 24 Fortune 500 companies, the fourth 
                highest concentration in the United States.

                `  Is the sixth largest technology center among U.S. 
                metros, with over 225,000 technology jobs in four major 
                areas: advanced manufacturing, information services, 
                professional and technical services, and bio-life 
                sciences.

                `  Has a diverse technology-based economy. Legacy 
                industries include aerospace, electronics 
                manufacturing, data/IT information processing, and 
                telecommunications manufacturing and services, and 
                emerging industries include bio-life sciences, medical-
                device manufacturing, and intelligent medical systems.

         About Collin County: \5\
---------------------------------------------------------------------------
    \5\ Adapted from information available on the Collin County 
government website: http://www.co.collin.tx.us/business/numbers.jsp.

                `  The fastest growing county in Texas, and one of the 
                fastest growing in the country. Among counties with 
                more than 500,000 people, Collin County has the highest 
                sustained population growth in the U.S. since 2000--
                52.1 percent. Additionally, 8 of the 10 fastest-growing 
---------------------------------------------------------------------------
                cities in North Texas are in Collin County.

                `  Has relatively low unemployment (6.9 percent in July 
                2009, well below the nationwide rate of 9.1 percent).

                `  Has an educated workforce--47 percent of those 25 
                and older have a bachelor's degree, double the national 
                average.

                `  Ranked second in Forbes magazine's ``Best and Worst 
                School Districts for the buck''.

    5. About the Committee on Science and Technology \6\
---------------------------------------------------------------------------
    \6\ http://science.house.gov/about/default.shtml.

    House Science and Technology Committee Chairman Bart Gordon of 
Tennessee and Ranking Member Ralph Hall of Texas are tenured, 
knowledgeable and committed to careful oversight of the Committee's 
far-reaching jurisdiction.
    That jurisdiction includes all non-defense federal scientific 
research and development (R&D) at a number of federal agencies, 
including (either completely or in part): NationalAeronautics and Space 
Administration (NASA), Department of Energy (DOE), Environmental 
Protection Agency (EPA), National Science Foundation (NSF), Federal 
Aviation Administration (FAA), National Oceanic and Atmospheric 
Administration (NOAA), National Institute of Standards and Technology 
(NIST), Federal Emergency Management Agency (FEMA), U.S. Fire 
Administration, the U.S. Geological Survey, the Department of Homeland 
Security (DHS) and the White House Office of Science and Technology 
Policy.
    The Committee is responsible for overseeing research and 
development programs at all of these federal agencies.
    The Committee was established in the wake of the Russian launch of 
Sputnik in 1957 and in the beginning it was primarily focused on space 
exploration. In 1959, the Committee became the first new permanent 
committee established in the House since 1892. Over the years, the 
Committee's jurisdiction grew to include almost all non-defense federal 
scientific research and development [House Rule X(1)(o)]:

        1.  All energy research, development, and demonstration, and 
        projects there for, and all Federally owned or operated 
        nonmilitary energy laboratories.

        2.  Astronautical research and development, including 
        resources, personnel, equipment, and facilities.

        3.  Civil aviation research and development.

        4.  Environmental research and development.

        5.  Marine research.

        6.  Commercial application of energy technology.

        7.  National Institute of Standards and Technology, 
        standardization of weights and measures, and the metric system.

        8.  National Aeronautics and Space Administration.

        9.  National Space Council.

        10.  National Science Foundation.

        11.  National Weather Service.

        12.  Outer space, including exploration and control thereof.

        13.  Science Scholarships.

        14.  Scientific research, development, and demonstration, and 
        projects thereof.

    The Committee also has special authority to ``review and study on a 
continuing basis laws, programs, and Government activities relating to 
nonmilitary research and development.'' [House Rule X(3)(k)]

    6. Questions for the Witnesses

    In preparing their testimony, witnesses were asked by the committee 
to provide an overview of their organization's technology, products, 
programs, or activities, and their role in and relationship to the 
Northeast Texas Innovation Economy. Additionally, witnesses were asked 
the following questions:
    [All witnesses] What do you see as the most important elements 
necessary to develop regional innovation capacity and grow the high-
tech economy? Relatedly, what if any recommendations do you have to 
strengthen Federal policies, programs, or priorities in support of both 
regional and national innovation? How can State and local governments 
best contribute to and facilitate an environment conducive to 
innovation and competitiveness?
    [Dr. Israel and Dr. Jones] Please describe your experience with any 
Federal science, technology, engineering, and mathematics (STEM) 
education or research programs or awards that the college participates 
in, including how such programs help to further the goals of your 
college and how they might be improved.
    [Mr. Luce] What priorities and recommendations do you have for 
Federal STEM education programs and funding?
    Chairman Gordon. This hearing will come to order. I feel like I 
should say hear ye, hear ye since we're here in this courtroom. I want 
to welcome everyone to today's hearing entitled Strengthening Regional 
Innovation: A Perspective From Northeast Texas.
    We appreciate everyone's attendance. And I'm certainly happy to be 
here with my friend and partner Ralph Hall. Ralph has heard me say this 
before, but it's the truth. When I was growing up, my grandfather used 
to always tell me that every time the Grand Jury met in Tennessee, the 
population of Texas increased.
    Mr. Hall. Not so.
    Chairman Gordon. Since a lot of my relatives were a part of that 
migration, I'm glad to follow them here today. Ralph and I have been 
working together for years to improve American innovation and STEM 
education.
    He's played an indispensable role in developing legislation in 
these areas. Our bipartisan relationship carries over to the rest of 
the Science and Technology Committee, and that's why we've been able to 
get consensus and move forward on so many important issues.
    As a matter of fact, every bill that the Science and Technology 
Committee has reported out, every bill and resolution has been 
bipartisan. Most all have been even unanimous. So it's really, 
unfortunately, an anomaly in Congress now. We're trying to hopefully 
promote that in other committees and on the House floor itself.
    And as Chairman, I'd like to say that I don't care whether or not 
the idea is a Democratic or Republican idea. I'm only interested in 
good ideas, and that's why I'm here today, to see the good ideas that 
we can find here in Texas.
    Because we are holding this hearing in Mr. Hall's district, I will 
now turn the gavel over to the distinguished Ranking Member Mr. Hall to 
preside over this hearing.
    [The prepared statement of Chairman Gordon follows:]

               Prepared Statement of Chairman Bart Gordon

    Good morning, and thank you again Mr. Hall for inviting me to your 
district today to learn more about regional innovation in Northeast 
Texas.
    As we all know, we live in an increasingly competitive world, where 
manufacturing jobs are rapidly being outsourced and we are importing 
more high-tech products than we are exporting. Our country increasingly 
needs to compete with better skills and higher productivity. To 
maintain our nation's high standard of living, we will need to sustain 
our world-class science and technology enterprise that creates 
innovative new products and high-paying jobs.
    In order to sustain this science and technology enterprise, we need 
a workforce that is prepared in a world-class math and science 
educational system. The day our universities are no longer the most 
sought after in the world, the day we see a brain drain because our 
best and brightest young scientists and entrepreneurs can't get the 
funding to do their research and development here at home, is the day 
our innovation is outsourced. To help address this, last August the 
President signed into law the America Competes Act, which is 
comprehensive legislation developed by our Committee that seeks to 
ensure U.S. students, teachers, businesses, and workers will continue 
leading the world in science, innovation, research, and technology.
    Regional innovation clusters are also a key component of our 
national competitiveness. Through collaborations and partnerships 
between industry, regional and local government, community colleges and 
Universities, this region and others have been able to make the most of 
their resources and build a vibrant local culture of innovation that 
creates good jobs and boosts economic development. Today, I look 
forward to hearing from our witnesses the ways in which Northeast Texas 
has leveraged its resources to create a regional center of innovation. 
I also look forward to hearing testimony about how the federal 
government can best encourage and support such efforts across the 
Nation.
    I thank all of the witnesses for being here today and I look 
forward to your testimony.

    Mr. Hall. How long can I keep it? Well, I sure thank you, 
Mr. Chairman. I'm honored to be here and all of the 
introductions and renewal of friendships with each of you. 
Thank you for being on this Committee. And I'm very proud of 
you.
    I could take the rest of the day to brag on the Chairman. I 
almost say that even if the Republicans took the chair back two 
years from now, I wouldn't be at all put out if he stayed 
Chairman and I was second to him because he's a great guy to 
work with.
    He's totally completely honest. He's bipartisan to the 
gill. And he has run the best committee of any Committee 
Chairman out there and that's why we've passed bills together. 
And I've been honored to work with Bart. Good guy. Good 
Tennessee guy. You can't beat one.
    And all of the introductions have been going here, you 
know, in Washington we're accustomed to saying to the 
Congressman, will the defendant please rise. We're glad to be 
here and not be defendants in the courtroom.
    Sam Johnson, I have not heard whether Sam is going to be on 
his way or not. Or is he on his way back to DC? But what a 
great guy he is and a lot of you here have him for your 
Congressman. He's the person that's suffering for us 
immeasurable years alone in a cell. Eight years. Half of that 
time by himself.
    He's just a great Member of Congress. And he's not I don't 
say re-electing for that alone, but that's enough. But he's 
also really the heart and soul of the United States Congress 
because of his suffering for the country.
    And when we have differences about whether or not we're 
gonna pull out of Iraq or we're gonna tell them when we're 
leaving or something like that, Sam tells them how he felt over 
there in that hotel there that they were all held in, how he 
felt when the nation was pulling out from under him.
    So he's great. I hope he gets here. And I wouldn't brag on 
him that much if he's here because he gets a big head every now 
and then. But I'm the oldest guy in the United States Congress, 
and he can't tell me anything.
    Well, thank you all. And, Mr. Chairman, I want to thank 
your for taking time in your busy schedule to be here. I don't 
just thank you for this trip. I lost my wife a year ago last 
Wednesday. He flew over from his hometown, canceled four 
situations there to be with me.
    That's how good of friends we are. And you don't forget 
things like that. When you're hurting and you have friends that 
are hurting, it helps. So I thank you for your busy schedule, 
taking out and coming here and everyone else here that you 
brought with you.
    And I want to thank Collin County Judge Self. He's gone to 
start the mission court off to go in there and his team here 
for letting us use his courtroom and those of you who agreed to 
it.
    Let me start by saying a few words about what Chairman 
Gordon and I do in guiding the work of the Science and 
Technology Committee. There's no other Chairman that passed the 
legislation that he's passed. And maybe some people think 
that's not good, but basically it's been toward 
competitiveness. That's been the keyword that he's--that's his 
keyword in the Committee, and I support him wholeheartedly.
    We have a responsibility for oversight for the most of the, 
I guess, technology--the work of the Science and Technology 
Committee and for the Federal Government's civilian science and 
technology programs and activities, all of NASA and our space 
program, all the research performed at the Department of Energy 
and its laboratories, federally supported research performed at 
universities, many other math and science education programs at 
both the K-12 level and at colleges and universities.
    Another issue we worked on that cuts across all the 
activities I just mentioned is competitiveness, and 
specifically, looking at ways to improve our long-term economic 
competitiveness by strengthening science, technology and our 
entire innovation system, so we're still building on 
legislation.
    I think Chairman Gordon spent a lot of time this past 
couple of years trying to identify the right policies and 
investment priorities to do with competitiveness, the thrust 
that he had. And in August of 2007, we were successful in 
pushing into law landmark legislation in 2007 known as the 
America COMPETES Act. And Bart took, of course, the lead in 
that.
    So we're building on that legislation, and today's hearing 
is to give us an opportunity for us to learn more about the 
relationship between innovation and economic growth through the 
lense of Northeast Texas. And we listen to you all for that.
    I just know that it's an opportunity for our Chairman and 
those with him that's supportive of him to hear it firsthand 
from our local leaders at the State and local level, in 
industry and small business and in higher education. So there's 
no better place to start then right here in Northeast Texas.
    I want to brag a little bit. Collin County, for example, is 
the fastest growing county in Texas and one of the fastest 
growing counties in the country. Unemployment here is under 
seven percent, well below the national average.
    And almost half the adults--and this is a major 
accomplishment here. Almost half of the adults 25 and older 
have a bachelor's degree. More than twice the national average. 
And that's thanks to Bob Collins, the President of our 
community college here.
    And I think when I was in the Texas Senate, we had a 16 to 
15 vote when they created the community college concept. I 
think it was the best act that happened there during my time in 
the Texas Senate.
    Almost all of the adults here 25 or older have a bachelor's 
degree. And given data such as this, I think it's no surprise 
that this is a great area for technology. And let me just hit 
one more lick there.
    This area is a technology powerhouse. The greater Dallas 
area is the sixth largest technology center in the country with 
over 225,000 technology jobs. I may have more to say a little 
bit later.
    But I think the witnesses and organizations that we have 
here today represent the very best and the brightest of this 
area and are a very important reason why we've been relatively 
prosperous. And I look forward to hearing from them this 
morning. Mr. Chairman, I hand it back.
    [The prepared statement of Mr. Hall follows:]

           Prepared Statement of Representative Ralph M. Hall

    I want to thank you for taking time out of your busy schedule to 
visit us here in Texas, and welcome you and everyone else here this 
morning to beautiful McKinney. I also want to thank Collin County Judge 
Keith Self and his team here at the courthouse for their great support 
in allowing us to use this hearing room this morning.
    Let me start by saying a few words about what Chairman Gordon and I 
do in guiding the work of the Science and Technology Committee back in 
Washington. We have a responsibility for oversight of most of the 
Federal government's civilian science and technology programs and 
activities. This includes, for example, all of NASA and our space 
program, all the research performed at the Department of Energy and its 
laboratories, Federally-supported research performed at universities, 
and many math and science education programs at both the K-12 level and 
at colleges and universities.
    Another issue that we work on that cuts across all of the 
activities I just mentioned is competitiveness--specifically, looking 
at ways to improve our long-term economic competitiveness by 
strengthening science, technology, and our entire innovation system. 
Chairman Gordon and I spent a lot of time on this the past couple of 
years, trying to identify the right policies and investment priorities 
to do this, and in August of 2007 we were successful in passing into 
law landmark legislation in 2007 known as the America COMPETES Act.
    We are still building on that legislation, and today's hearing is 
an opportunity for us to learn more about the relationship between 
innovation and economic growth through the lens of Northeast Texas. It 
is also an opportunity to look at not only what the Federal government 
is doing and should be doing, but also an opportunity to hear first 
hand from our local leaders--at the State and local level, in industry 
and small business, and in higher education.
    I think it is especially important as we work our way through these 
tough economic times that we take the time to learn from how things are 
done at the local and regional level, and there is no better place to 
start that right here in Northeast Texas. We certainly haven't been 
immune to the recession here, but we haven't been hit as hard as a lot 
of regions, and our employment data and longer-term business growth 
trends are impressive.
    Collin County, for example, is the fastest growing county in Texas 
and one of the fastest growing in the country. Unemployment here is 
under 7 percent--well below the national average--and almost half of 
adults 25 and older have a bachelor's degree--more than twice the 
national average. Given data such as this, it should be no surprise 
that this area is also a technology powerhouse--the greater Dallas area 
is the sixth largest technology center in the country, with over 
225,000 technology jobs.
    To close, I want to share with you an interesting anecdote that 
illustrates our economic standing in a different way. Recently, some 
economists have suggested that U-Haul truck rental rates may be a good 
way to compare and even forecast the economic strength of two areas--
the cheaper the rate, the stronger the local economy. The idea is 
simply that if an area's economy is strong and growing, it will have a 
surplus of U-Haul trucks as a result of people moving into the area, 
and the excess supply of trucks leads to low rates.
    Well we put this to the test. The cost to rent a 26-foot U-Haul in 
Los Angeles and drive it here to McKinney is $2,000. But the cost to 
rent the same exact truck here and drive it back to L.A. would be only 
$600!
    Now that's not scientific, but I think it's another sign that we're 
doing something right. And in my biased opinion, I think that something 
has to do with how we foster the entrepreneurial spirit and the right 
kind of environment for technology and innovation, which we know over 
the long-term translates to jobs!
    The witnesses and organizations that we have here today represent 
the best and the brightest of this area and are an important reason why 
we have been relatively prosperous. I look forward to hearing from them 
this morning.

    Chairman Gordon. Thank you, Mr. Hall. You know, when you 
mention that 16/15 vote, you didn't mention how you voted. It 
reminds me of my--you know, the suffrage amendment that allowed 
women to vote passed by one state and by one vote in that 
state, and that was in Tennessee.
    And my grandmother took me--at that time, you had to be 21 
to vote. And she took me to register to vote. And she told me 
about that story and about all too long about the difficulties 
women had before that.
    And then she just said it passed by one vote. And her 
father was in the legislature at the time. And she didn't say 
anything else. So I, you know, was a little hesitant.
    I finally asked, ``Well, how did he vote?'' And she said, 
``Well, he really wasn't for it, but he was afraid to come home 
if he didn't vote for it.'' So Ralph, I'll ask you, how did you 
vote that on 16/15?
    Mr. Hall. Well, I tell you, we had two people from San 
Antonio, one named Professor Bernal. He was a little professor 
there. And the another was Red Barry whose claim to fame was he 
drove a car for Al Capone.
    And they hated one another. And they would never vote 
alike. And we ran that bill through them for the passage of the 
bill, final passage. And when Barry, one of them--you'll have 
to do it alphabetically to know who comes first, Barry or 
Bernal.
    But whoever came first voted one way and the other one 
automatically voted the other way. We had to have them both. 
And we went over and rode out for Red how to say I move it to 
reconsider the vote by which the vote was taken. He had to read 
that off and finally, he did and we voted again and they did it 
again. The other one voted.
    We went through three votes. And, finally, I made them vote 
before I voted. And then I cast the last vote which was the 
16th vote, and we got the community college concept. It's been 
the very best thing for families and for youngsters.
    We have a wonderful facility here. We have higher education 
in one and this the other. We have all kinds of--we have Martin 
Izzard here who is--he's here because he's brainy, but he's 
also a surfer from South Africa. He's won titles over there.
    And I learned all this from Gray Mayes who is my contact to 
TI. Many times me and my wife's folks didn't have a job, and I 
just called her and sick her on them. She hadn't ever hired one 
of them yet, but she sure has talked to them.
    But thank y'all for being here. Each of you have something 
very special about--Tom Luce who's a legend here in my 
background. I have my own school Texas A&M at Commerce. When 
y'all did that, you put me to sleep with an Aggie.
    My wife, she graduated from there before. It was--it's a 
great school. My mother went to Mayo College there in Sam 
Rayburn a hundred years ago. He came to my breakfast table to 
tell my mother why he couldn't appoint me to the Naval Academy.
    He said there are three reasons, all three of them are his 
grades. But we're all alike. Let me just go around another. We 
all have different thoughts and think a little bit different, 
kind of like the guy that was there watching his son--was 
studying while he's watching TV and listening to music and 
doing a crossword puzzle and watching radio and everything.
    Father told him, he said, ``When Abe Lincoln was your age, 
he studied books by the light of the fireplace.'' And his son 
replied, ``Yeah, when he was your age, Dad, he was President.'' 
So it come back on us. I do yield back and I look forward to 
the testimony we have.
    Chairman Gordon. Well, what did I start there? Let me----
    Mr. Hall. I've got more.
    Chairman Gordon. Well, let me just right quickly conclude 
by saying again thanks to Ralph for his kind words, but the 
fact of the matter is that we really are partners in everything 
that's been done, and that's the reason we get things done.
    Let me tell you what I think is our really fundamental 
situation here in this country, and that is that there's six 
and a half billion people in the world. Half of those that are 
working make less that $2 a day.
    And so if my eight-year-old daughter and your kids and 
grandkids are gonna grow up as generations before and 
experience the American dream of being able to inherit a 
national standard of living from their parents, then we have to 
make some real changes in this country.
    I'm sure you're gonna tell us about our competitiveness, 
and Tom has talked a lot about that and how math and science 
education is a key component of that. And certainly we're not 
just talking about a few Ph.D.'s. We're talking about a work 
force.
    We're talking about high school graduates, hopefully 
community college graduates and beyond in working that higher 
skill level because they're making ten weeks to an hour in 
India or China. We've got it making 100 or 150 here.
    Not only that, we need to be inventing widget concepts and 
develop the machines here. So we've got a lot to do. And I 
think your cluster concept is something that I want to hear 
more about. My home is Rutherford County, Tennessee. We are the 
fastest growing county in Tennessee and one of the fastest in 
the nation also.
    And we have a university as well as some community 
colleges. And we're just starting an effort to try to develop a 
high tech corridor. And so I'm anxious to learn more about what 
you're doing here, how that can be replicated across our 
country so that we can have a stronger and more competitive 
nation.
    So, Ralph, I yield back to you, and we'll move forward.
    Mr. Hall. Okay. Let me just thank you and your staff too. I 
think you have Robert Etter with you and Bess Caughran my staff 
works with daily up there, Dan Byers, Zac Kurz and Janet 
Poppleton who is my aide in both the Federal and the State 4th 
Congressional District.
    Chairman Gordon. Bess is a Texan and glad to come home.
    Ms. Caughran. Yep, I'm glad to be here.
    Mr. Hall. We have a witness list here and I will just go 
down through them. I tell you this, I got up at 4:30 yesterday 
morning to catch a 6:00 o'clock plane down here. I don't know 
what time you had to get up to get here by 8:00.
    And I left a day before when we had 1,200,000 mad people in 
Washington, D.C. And they weren't mad at me, but yet I got 
45,000 things of tea in my pickup back in my home garage there 
that they put on me. So that's how mad they are.
    And even--they're there and it was a great sight. And they 
were peaceful, and everybody was fine. The President spoke to 
us the other night. And Joe Wilson was kind of his self-
appointed prompter, but he shouldn't have.
    I think he's sorry for it. But Bart will tell you he's one 
of the nicest guys in the world. I don't know why he blurted 
out like he did. You don't interrupt the President no matter 
who he is and disagree with him a whole lot.
    I disagree with him a whole lot. But he is our President. 
And I wrote him the fifth day, Bart, after he was elected, and 
I said to you, Mr. President, the same thing Sam Rayburn and 
Lyndon Johnson said to General Eisenhower when he was elected.
    "Mr. President, I didn't vote for you. My district didn't 
vote for you. My State didn't vote for you. But you're the 
President, and I'm gonna try to make you a good President.''
    I didn't see him again until about four or five weeks 
later. We sat together at the table and he had all of the 
chairmen.
    Chairman Gordon. Yeah.
    Mr. Hall. You can't be a chairman unless you're a Democrat 
up there, and that's not right. But it's the law. And we sat at 
the same table there. He had us all over there. And I shook 
hands with him.
    He said, ``I thought you were gonna try to help me?'' I 
said, ``Well, you wouldn't listen to me.'' I said, ``Do you 
want to know why I voted no eight times in a row?'' He said no.
    He's pretty sharp. He knew I was gonna tell him because 
there wasn't a place to vote hell no. But he was good natured 
about it. I tell you how I really deep down feel about the 
President of the United States today.
    I believe he wants what's best for this country. I believe 
he's trying to do what he thinks he ought to do for this 
country. I just--I appeal to him the same thing and he can say 
something if he wants to.
    But I just don't think he knows the consequences of his 
either winning the battle for the bill he wants or losing the 
battle. I don't know which would be worse, but I think either 
one of them are bad for our children.
    And Bart is a conservative Democrat that has a hard time 
supporting his own party and ideas for a lot of years there. 
And when I left, I didn't demean anybody or run anybody down 
because I didn't feel that way.
    But we have--and a lot of guys that are Texas Members are 
having to vote some votes that they really would rather not 
vote, but they're trying to be good Members.
    And I just say rather than to shout out at them to be fair 
with them and try to understand what their situation is because 
they probably--I'll say this. They're probably the best 
Democrats that can be sent up there from their districts. And 
I'm not anxious to beat any of them.
    Chairman Gordon. Ralph, we better get on with our hearing 
here. We've got some folks that are----
    Mr. Hall. All right. You want to go on with the witnesses.
    Chairman Gordon. Yes, sir.
    Mr. Hall. Dr. Cary Israel is the President of Collin County 
Community College. This is the man I can brag on for a long, 
long time. We recognize you for five minutes; but if you go 
over five minutes, we're not gonna say anything.

  STATEMENTS OF DR. CARY A. ISRAEL, PRESIDENT, COLLIN COUNTY 
                   COMMUNITY COLLEGE DISTRICT

    Dr. Israel. Thank you, Mr. Chairman, and also Ralph--
Congressman Hall. We appreciate it very much to have this 
opportunity to speak. I am Cary, current President of Collin 
County Community College district, and I am honored to share my 
thoughts today and to the Chairman of our board Robert Collins.
    And this year we'll serve 46,000 students, to give you kind 
of a scope of our institution. Across the nation, as you know, 
most community colleges are experiencing record setting growth 
this fall.
    We've been growing rapidly for the last 10 years; however, 
we just witnessed a tsunami of new enrollment. We went up 18 
percent. Some of this is the result of our economy, but I 
firmly believe that some of it is a sign of the power and 
effectiveness of local--and I underline ``local"--regional 
assets, regional and local planning and collaboration.
    And so what I'd like to emphasize in my testimony is, local 
collaboration is the ideal venue to leverage resources for the 
benefit of our nation. If I look at the stimulus economic 
packages and some of the information coming out of Congress, it 
seems they are all very laudable and lofty initiatives.
    I applaud everyone for working in this direction. However, 
we at our institution are concerned about the plan that too 
narrowly defines the objectives and the processes. For example, 
the Administration supports a system for delivering a collegic 
education online for efficiency purposes.
    Our entire curriculum has been online for the last three 
years, and you can get a degree online at Collin. However, we 
were the first college in the nation for community college out 
of 12,000 and only one of the few still that you can get your 
degree on the weekend by going to weekend college.
    And, again, we have to use some technology on the weekend, 
but we served over 4,000 students on the weekend; taking an 
asset that's not filled that we have to do 24/7 on security and 
heating and air-conditioning and filling it up.
    Now, we meet Friday, Saturday and after church on Sunday, 
not everyone can say that. And this is an efficient and, I 
think, very cost effective way so that we don't have to 
continue to build new facilities.
    But as I look at the packages coming out and the 
legislation coming out, we would not get any funding for this. 
Again, it's an innovative way, but it doesn't meet just an 
online concept.
    We have a 10 university pre-admission partnership going, 
and it's been going since 2000. Again, by collaborating with 
the universities and working better together, we can shorten 
time of the degree, so instead of four years--5.2 years to get 
a four-year degree, it takes four years.
    And, again, we don't see the opportunity or the latitude to 
have some local innovation. We created the first alternative 
teacher certification by a community college in the United 
States also in 2000.
    There are now four hundred of those programs in community 
colleges across the country. More importantly, we are ranked 
one of the top 10 last year and got an Encore Grant from 
Metropolitan Life.
    And what we are doing? We're taking 50-year-olds, 40 or 50-
year-olds here, and we're bringing them back to become science 
and math teachers. And there's a great need, and we have a lot 
of the interest in the 50-year-olds.
    We have a wonderful--we have a wonderful Convergence 
Technology Center. This is an advance technology education ATE 
Regional Center of Excellence. The National Science Foundation 
in 2004 awarded us $2.46 million.
    There is a growing need in our country in skilled 
specialist in the area of convergence technology and home 
technology. This field didn't exist. We created the curriculum 
for the country, and we're very proud of that. In fact, we just 
got a continuation grant to make this green IT.
    Again, this happened at the local level without us being 
prescribed in what to do. We're one of the six--only six 
community colleges of the Cisco Certified Training Center, 
Cyber Security, Center for Advanced Study in Mathematics and 
Natural Sciences and biotech all at a community college.
    We have our own Wide Area Network. We have a 54-mile loop. 
This county is looped in our network. Again, we don't duplicate 
cost. I have a short amount of time period.
    I am going to end by saying that we are a leader in our 
healthcare field. Our nursing program was just named one of the 
top three programs in the State of Texas out of 90.
    We have a healthcare simulation Lab that's been visited by 
physicians and nurses from Switzerland. And we're becoming 
nationally known. And so what we would like to do, much like 
our alternative teacher certification, first in the nation, 
much like the convergence technology, first in the nation, we 
really would like to--and, again, I don't think it's too bold, 
but we would like to become a Mayo or an M.D. Anderson for this 
region and to define a new campus in the eastern part of Collin 
County as it relates to healthcare, which is a growing need, 
and a shortage of physicians.
    Again, we would hope that we would have the latitude and 
the opportunity to innovate even though right now we don't see 
that's a possibility. Thank you for the opportunity of speaking 
before you. And my written testimony has been submitted. Thank 
you.
    [The prepared statement of Dr. Israel follows:]

                Prepared Statement of Dr. Cary A. Israel

    First and foremost, I would like to thank Chairman Gordon, U.S. 
Congressman Ralph Hall and other members of the Committee on Science 
and Technology for hosting this hearing.
    My name is Cary A. Israel, and I am President of Collin County 
Community College District (Collin College). I am honored to share my 
thoughts and those from Chairman Robert Collins and our Board of 
Trustees about science and technology in higher education. The faculty, 
students, and staff of our college very much appreciate your attention 
to the cause of higher education.

Conquering Challenges Through Higher Education

    Across the nation, community colleges are experiencing record-
setting growth this fall. Collin College has been growing rapidly for 
more than 10 years, but this year, we witnessed a tsunami of new 
enrollment. Certainly some of the 18+% growth is a result of our 
economy; but I firmly believe it is also a sign of the power and 
effectiveness of local/regional assets, planning, and collaboration. 
Regional and local collaboration is the ideal venue to leverage 
resources for the benefit of the entire nation.
    If we look at the economic stimulus package and proposals from the 
administration, we see many laudable and lofty initiatives. However, we 
are concerned that the plan too narrowly defines the objectives and the 
process, which ultimately could constrain innovation rather than 
encouraging it. We wholeheartedly agree that community colleges will 
play a key role in the nation's economic recovery, but we ask 
leadership from Washington to outline goals without delineating the 
method. For example, the administration supports a system for 
delivering a collegiate education online for efficiency purposes. 
Online courses are a staple of American higher education today, but 
they are not the only means to put Americans back to work.
    Case in point: In 2005, Collin College launched Weekend College 
program, which allows students to earn an associate's degree in two 
years by taking classes on Friday evening, Saturday and Sunday 
afternoon. This is ideal for individuals who work frill-time but want 
to re-train or re-career in new fields like engineering and the 
sciences. Weekend College is also an efficient way to expand capacity 
without building new facilities since campuses are usually vacant on 
the weekend, but the college still pays for utilities, security, etc. 
By adding Weekend College, we reached out to a population of students 
who otherwise would not be able to go to college and leveraged an asset 
that was not fully utilized. Now, total enrollment in Weekend College 
is 2,728 this fall-up from about 2,000 last fall. Our next step is to 
work with one of our University pre-admission partners to offer a 
baccalaureate degree on the Weekend.
    Collin College also created the nation's first alternative teacher 
certification program at a community college, to respond to the 
critical shortage of classroom teachers. Nearly 500 individuals have 
graduated from the program, and today there are 400 programs similar to 
ours. Last year, we were honored to be one of only 10 colleges or 
universities in the nation chosen for the ``Encore Careers'' Grant from 
Metropolitan Life to help re-career those from the math or science 
fields, who were 50 years old and above to serve as classroom teachers. 
More importantly, the program has also been listed as one of the top 10 
alternative teacher certification programs in the nation.
    All of this was accomplished through innovation at the local level, 
and this is the type of innovation we must encourage as we work on 
economic recovery. If the goal is to produce more engineers, teachers, 
scientists, etc., local elected and public officials in North Texas 
need the latitude to meet desired goals through hard work and ingenuity 
rather than a prescribed roadmap.

The Cutting-Edge of Science and Technology Education

    ``Creativity & Innovation'' are among the Core Values at Collin 
College. We believe that advancement in science and technology begins 
in college classrooms and laboratories and libraries where individuals 
gifted with natural curiosity meet the professors who inspire them. 
Below are a few of our programs that have been recognized for 
innovation:

         Convergence Technology Center, National Science Foundation
        <bullet>  The Convergence Technology Center is an Advanced 
        Technology Education (Al E) Regional Center of Excellence 
        originally funded in 2004 by a $2.46 million dollar four-year 
        grant from the National Science Foundation to meet the growing 
        need for skilled specialists in the area of Convergence 
        Technology and Home Technology Integration. After September 11, 
        2001 and the ``dot corn bust,'' businesses and colleges in the 
        North Texas region collaborated on this grant to reconstruct 
        the landscape of IT/telecommunications education for the entire 
        country to match the then emerging need for convergence 
        technicians . These technicians install, maintain and operate 
        systems of voice, data, video and image across a secure 
        network.

        <bullet>  As of September 1, 2009, the Center has been awarded 
        a new grant in the amount of $1.56 million dollars to focus on 
        the emerging needs of Green IT convergence technicians. This 
        grant will support modifying curriculum to include Green 
        topics, creating updated online courses, training faculty to 
        teach convergence and Green IT, targeting Hispanic students for 
        recruitment into this field and mentoring at least six 
        community colleges yearly to enable them to launch their own 
        convergence degree and certificate programs.

        <bullet>  The seven partner colleges who launched convergence 
        programs on their campuses have seen a jump in enrollment in 
        their IT departments as a result of the new convergence 
        offerings. Over the last year over 4,000 students were enrolled 
        in IT courses at the seven partner colleges.

         Cisco Certified Training Center

        <bullet>  Collin College has been designated as one of only six 
        colleges to become a Cisco Certified Training Center in the 
        United States, serving the eight-state Southwest region. 
        Preston Ridge Campus in Frisco, Texas is the primary site of 
        Cisco Training, but Cisco lasses are also offered at other 
        campuses.

        <bullet>  Collin College's Cyber Security program prepares/
        qualifies the student for the challenges faced by companies and 
        government agencies in the areas of Cyber Security network 
        management, system administration, technical support, hardware/
        software installation, and equipment repair. This program has 
        worked with companies such as EDS, Perot Systems, and Raytheon. 
        With an eye toward hard working professionals, three of the 
        four classes required for certificate completion can be taken 
        online, as well as in the classroom. Nearly 1,000 students have 
        participated in training over the past year in these vital 
        fields.

Research and Innovation

    Collin College has asserted itself as a leader of undergraduate 
research.. Many of our science students are gaining valuable experience 
with expert faculty doing research that they would not ordinarily see 
until graduate school. The outcome of this innovation has exhibited 
itself in a number of capacities.

         Center for Advanced Studies in Mathematics and Natural 
        Sciences

        <bullet>  The Center for Advanced Studies in Mathematics and 
        Natural Sciences (CASMNS) is a specialized program for highly 
        motivated and talented students majoring in mathematics or the 
        natural sciences. The Center offers opportunities for students 
        enrolled in select courses in biology, chemistry, mathematics, 
        physics and geology to participate in a variety of 
        undergraduate research activities.

        <bullet>  Last year, CASMNS student Helen Zhu and Chris Doumen, 
        professor of biology, submitted the complete DNA sequence of a 
        crawfish enzyme to the National Gene Bank. The enzyme, 
        cytosolic manganese Superoxidase Dismutase (SOD), eliminates 
        harmful free radicals produced when oxygen is used in cells. A 
        local solution potentially solving worldwide problems.

         Biotechnology

        <bullet>  Collin College's biotechnology program has been 
        equally proactive in providing venues for undergraduates to get 
        graduate-level experience while learning scientific and 
        laboratory method and etiquette.

        <bullet>  These experiences have helped our students get 
        positions in biological research and industrial laboratories 
        around the nation. Research done in the biotechnology program 
        pertains to agriculture, medicine, pharmaceuticals and other 
        applications that impact the world.

         Wide Area Network (WAN)

        <bullet>  All campuses and future campuses at Collin College 
        are linked to each other and the globe via a dedicated high 
        speed network. This has enabled us to implement a VoIP 
        communication system throughout our District. We also provide 
        excess bandwidth for local governments so that they do not have 
        to run the same fiber over the same poles thereby saving 
        millions of dollars for taxpayers. Additionally, the system 
        allows for coordination of emergency response protocols in the 
        case of weather, HIN1, pandemics, etc.

Solutions in the Business World

    Today's business owners--no matter how small or large--face a 
different challenge than they did 100, 50 or, even, 10 years ago. Small 
business owners are no longer limited to marketing in their immediate 
area. Instead, they can compete on a national and worldwide 
marketplace.
    During the last year the Collin Small Business Development Center 
(SBDC) has served 852 distinctive clients: 568 pre-venture clients; 136 
start-up companies under one year in business; 148 established business 
clients; and 157 clients that were home based. The economic impact of 
these companies has totaled more than $5.6 million in increased sales 
and $3.6 million in Small Business Administration loans, commercial 
loans and lines of credit and/or private investments.
    Of the 58 sciences and technology companies that the Collin SBDC 
has assisted this year, 13 of them are pre-venture, 20 of them are 
start-up ventures and 25 are established businesses. Eight of the 
science-type companies have produced or are in the process of producing 
products and 13 of the technology companies are in the same process.

Leading the Way in Healthcare

    As the population in Northeast Texas has grown substantially over 
the past 20+ years, so has the need for healthcare facilities. Collin 
College is meeting the need for more nurses, respiratory therapists, 
surgical technicians, health information professionals, dental 
hygienists, EMTs, firefighters and police officers. However, we have a 
vision to expand to an entirely new level.
    Collin College envisions being the home of a sophisticated regional 
hub for education and training in healthcare. We foresee a Center for 
Excellence in Healthcare equivalent to MD Anderson or the Mayo Clinic, 
for Northeast Texas. This would capitalize on the popular and award-
winning programs already in place, but also take advantage of location 
and regional transit plans.

         Intermoddal Facility

        <bullet>  The Collin County Commissioner's Court has discussed 
        bringing an intermodal logistics park to Eastern Collin County 
        as a rail and trucking hub and possibly tying to airport 
        facilities. The intermodal area would provide for truck to rail 
        and rail to truck exchange in incoming goods from around the 
        nation and abroad. The hub would be convenient to the impending 
        outer loop project that is near the college's future campus in 
        northeast Collin County.

         Award Winning Nursing Program

        <bullet>  Our nursing program is one of the top in state of 
        Texas of the more than 90 programs. It was one of three 
        recently honored for graduation and licensure success in Texas. 
        Also, the Texas Higher Education Coordinating Board gave our 
        nursing program an exemplary rating and this year, Dr. Nell 
        Ard, director of nursing, was one of 21 fellows inducted into 
        the Nurse Educator Academy from the National League of Nursing. 
        The nursing program also hosts refresher programs for those 
        returning to the nursing field. The nursing program has 
        increased enrollment ever semester since 2005 and it currently 
        admits 48 students twice a year. To put that into perspective, 
        about 250 students apply to our nursing program each semester. 
        The nursing program has also expanded curriculum to include a 
        Certified Nurse Assistant course and developed a marketable 
        skills achievement award combining nurse aide certification, 
        EKG tech skills and phlebotomy certification.

         Healthcare Simulation Lab

        <bullet>  One tool that makes Collin College's healthcare 
        programs attractive is the state-of-the-art Simulation Lab, 
        which operates five days a week and some nights and weekends to 
        provide students from all programs the feel of caring for and 
        attending to a real patient in a real hospital or emergency 
        situation. This simulation lab is becoming nationally-known as 
        innovative and has been visited by other programs, health 
        facilities and even a physician and nurse from Switzerland. We 
        are assisting METI, Inc. a provider of high tech mannequins, in 
        developing computer-driven scenarios for their cutting-edge 
        simulation mannequins. At our faculty's suggestion, the METI 
        company is developing interdisciplinary scenarios for use in 
        health science programs.

         Health Information Technology

        <bullet>  This new program currently already has more than 850 
        students enrolled. In the same manner that we created Weekend 
        College and the alternative teacher certification, Collin 
        College would like to lead the charge in providing health 
        information technicians for our hospitals and clinics through a 
        Health Information Institute and develop a model for the rest 
        of the country.
    Collin College has expanded but there are still many needed areas 
that could not be implemented due to a lack of funding, such as 
radiology technology, imaging, etc. Again, local issues lead to local 
solutions that can be replicated and adapted around the nation and 
world.

Recommendations and Solutions

    As you know, over time our country has fallen behind in science, 
technology and engineering. Yet as we gaze at the competition beyond 
our borders, we have the power to not only turn the tide but to lead 
discovery, invention and innovation to new levels through 
collaboration.
    Centralized management certainly is needed as the situation 
demands. However, thoughtful rapid response and creative solutions 
should, as appropriate, be lead at the local level. We are presently 
exploring a new definition of the campus of the future for our East 
Collin County site. We expect this to result in another leap forward 
for higher education in our region.
    As Americans lose their jobs and fear the loss of their jobs, they-
and their children are turning to the local community college for a 
solid education and a new career. Community colleges contribute to the 
local economy by raising the standard of education in the market. We 
also provide public safety and healthcare personnel to serve our 
constituents in their times of need. Our success is inextricably tied 
to the community and positioned to contribute to the national recovery. 
As Americans persevere through an historic challenge, community 
colleges look forward to being a part of the solution. With vision from 
Washington and innovative tactics at the local level we can accomplish 
great things.

            Thank you, Mr. Chairman.

                    Biography for Dr. Cary A. Israel

    Cary A. Israel is president of Collin County Community College 
District, a multi-campus operation serving over 46,000 credit and non-
credit students annually. Under his leadership, Collin County Community 
College is nationally recognized for its outstanding and innovative 
programs. The College was named a National Bellwether winner for its 
Learning Communities Program, received Campus Compact's National 
Collaboration Award for outstanding partnerships with business and 
industry, earned (for the 10th consecutive year) the ``Certificate of 
Achievement and Excellence in Financial Reporting'' from the Government 
Finance Officers Association, and has received the coveted ``Best of 
the Web'' award from the National Center for Digital Government for its 
downloadable catalog/schedule system.
    The first dual admission agreements in the State of Texas were also 
signed between CCCCD and the University of North Texas, the University 
of Texas at Dallas, Texas Woman's University, Texas A&M Commerce, Texas 
Tech University, Baylor University, Texas A&M College Station, Southern 
Methodist University, Dallas Baptist University, and Austin College.
    In response to the crises-level need for classroom IC-1.2 teachers, 
CCCCD was the first community college in the state to gain approval for 
their alternative teacher certification program (first in the nation 
also by a community college) and received a $689,347 grant from the 
U.S. Department of Education for their ``Preparing Tomorrow's 
Teachers'' program.
    Also under Israel's leadership, the District was designated as one 
of six CCNP (Cisco Certified Network Professional) Training Centers in 
the United States, named one of the first 18 campuses in the nation as 
a Microsoft IT Academy, designated an international CIW (Certified 
Internet Webmaster) Faculty Institute site by Prosoft Training and the 
National Workforce Center for Emerging Technologies, named the only 
Regional Academy for Security and Wireless training in the state of 
Texas, and chosen by Oracle Corporation to become a Workforce 
Development Program partner. In addition, under President Israel's 
leadership, a 54.5-mile 48-strand fiber optic network was constructed 
connecting all District facilities. Additionally, all campus facilities 
now have wireless capabilities.
    President Israel has also established the Collin Higher Education 
Center, Honors Institute, the Convergence Technology Program (funded by 
a $4 million grant from the National Science Foundation), Weekend 
College, the Center for Scholarly & Civic Engagement, the Center for 
Advanced Studies of Mathematics and Natural Sciences (CASMNS) Program, 
Destination College, the first and only Student Leadership
    Academy at a community college in Texas, and a model Academy for 
Collegiate Excellence (ACE) which is a rigorous leadership program 
designed to identify and cultivate leaders from within Collin County 
Community College District.
    In spite of the tremendous time commitment of leading one of the 
largest community college districts in Texas, President Israel finds 
time to contribute his talents as a leader on a national, state and 
local level. He is a founding member, previous Chairman, and current 
Board member of the Texas Campus Compact, a member of the Texas 
Association of Community College Presidents Executive and Legislative 
Committee, and serves on the University of North Texas Bill J. Priest 
Graduate Advisory Committee. President Israel is also on the Board of 
Directors of the Medical Center of Plano, the Plano Chamber of 
Commerce, the Plano Economic Development Board, and the Plano Symphony 
Orchestra. Additionally, he sits on the national SunGard Higher 
Education Advisory Board, the junior League of Plano, and is a member 
of the Plano Rotary club.
    Israel previously served as president of Raritan Valley Community 
College in New jersey, president of the Illinois Community College 
System (a 50 college system), and president of Front Range Community 
College in Colorado. He was named the CEO of the year by the American 
Association of Community College Trustees for the Eastern Region and 
last year was named the CEO of the year in the Western Region. 
Recently, he received the National Pacesetter of the Year Award from 
the National Council for Marketing and Public Relations. He has also 
received the National Leadership Award from the National Council for 
Continuing Education and Training. Additionally, he has received the 
Plano Community Forum's Community Award, the Collin-County League of 
United Latin American Citizens' Community Service Award, the Collin 
County Children's Advocacy Center Mentor Award, the Special Award of 
Merit from the Plano Chamber of Commerce, and the Phi Theta Kappa 
Shirley B. Gordon Award for Distinction.
    Cary Israel received a Bachelor of Arts. degree with highest honors 
from Michigan State University and juris Doctorate from the University 
of Detroit Mercy Law School.

    Mr. Hall. And I thank you. And I'd be remiss if I didn't 
thank Bob Collins who is the Chairman for the Collin County 
Community College Board and is the guy that I couldn't even 
start to represent this district without his support and 
friendship. And I thank him very much.
    I thank him also for working with young Barbara Goss who's 
the President of the Barbara Bush deal. It teaches youngsters 
about politics other than educating them. Bob's a great man, 
very valuable to us and very, very valuable to me as I 
represent you.
    Now, from my alma mater almost. My wife graduated there and 
my mother. My mother and my only wife graduated from there. I 
got a grandson over there right now. I hope you're gonna look 
after him. He's A much better student than I was because I made 
four Fs and a D one time and my dad punished me for spending 
too much time on one subject. Not as bad at school as I was.
    We have the President of Texas A&M University-Commerce Dan 
Jones. Good guy.

  STATEMENT OF DR. DAN JONES, PRESIDENT, TEXAS A&M UNIVERSITY-
                            COMMERCE

    Dr. Jones. Thank you, Congressman Hall. And we are keeping 
an eye on your grandson, as we do all of our students. Chairman 
Gordon, Congressman Hall, other honored guests, we appreciate 
the opportunity to testify to this hearing on regional 
innovation in Northeast Texas.
    Our university, A&M Commerce, plays an essential role in 
the continuing development of science and technology in 
Northeast Texas through innovative partnerships with industry 
and effective collaborations with community colleges and public 
schools.
    These efforts are vital as we strive to support the 
economic vitality of this region. The key to the success of 
many of our initiatives is the constant support that 
Congressman Hall has extended the University for many, many 
years.
    With his support, we have been able to implement a number 
of initiatives and strengthen the ties between education and 
industry and which we believe will help fulfill both our 
mission as a university and the intent of the Committee on 
Science and Technology.
    As you are aware, universities nationwide are focused on 
science, technology, engineering and mathematics or STEM 
initiatives. At A&M Commerce, we have added another letter to 
this acronym; E for education in our project STEEM initiative.
    Project STEEM focuses on enabling teachers and students to 
enhance their science, technology, education, engineering and 
mathematic skills through project based activities with 
scientist and research faculty at our university.
    More than 300 students have been served in the summer 
programs, which have such exotic names as the X-Teems and the 
Infinity Institute, and more than 60 teachers from our rural 
districts have participated in these as well.
    Two of our project STEEM students have received full 
scholarships for four years to attend MIT. These are students 
from small rural communities in Northeast Texas. We tried to 
get them to come to Commerce, but when beckoned, we didn't feel 
like we could hold them back.
    We will work this year to disseminate and replicate the 
STEEM model to bring more opportunity to rural areas. We have 
also secured grants from a number of Federal agencies, 
including the National Science Foundation, which focus on 
increasing the number of students, especially at the K-12 
levels, who aspire to careers in STEM fields.
    Our faculty worked closely with K-12 teachers and students 
to expose them to cutting edge research and to inspire them 
with the benefits to society of their work. Fifty students are 
served each year in one of these projects and 35 teachers are 
pursuing a master's degree in science or math through projects 
supported through these NSF initiatives.
    Surveys of student participants in both the STEEM and the 
M2T2 program--and there's details about that in my written 
testimony--indicate that a greater number of students are now 
considering careers in STEM fields which will positively impact 
the STEM workforce in our region.
    Teachers report improved teaching strategies in STEM 
content areas as a result of their participation. Partnerships 
with industry also support our preparation in tomorrow's STEM 
workforce.
    Through funding from L-3 Communications Integrated Systems 
in Greenville, our faculty have developed high-performance 
computing methods and capabilities which will provide our 
faculty and students with research and educational 
opportunities currently not available in the area. And I have 
some additional information on that project in the written 
testimony.
    I'd like to talk a minute about our partnerships with 
community colleges, including Collin College, because they're 
extremely important to the work we do in Commerce.
    In the fall of 2008, only 18 percent of our bachelorette 
graduates, graduates to whom we awarded degrees in December 
2008 entered the university as full-time freshman, while 82 
percent had entered as transfer students.
    Fifty-six percent of these graduates have completed at 
least 30 semester credit hours at a Texas community college. 
Because of these unique demographics, we have actively pursued 
grants to build the capacity of community college students to 
be successful when they transfer into our STEM programs.
    And through Dr. Cary Israel's vision, we are embarking on 
another program that will enable students here in Collin County 
to receive a bachelor's degree from A&M Commerce without having 
to go to Commerce through a partnership that will be 
implemented later this year.
    Our faculty members in physics, biology and chemistry 
receive additional research grants from NSF and other Federal 
agencies enabling a large number of both undergraduates and 
graduate students to engage in cutting edge research.
    This research experience has enabled these students to 
pursue doctoral degrees at prestigious institutions across the 
state and the nation. The point I want to emphasize is that 
regional universities are sources for regional innovation.
    Many tier I universities have wonderful research programs 
that target their efforts toward areas supported by large 
donors or the national research agenda.
    Regional universities, on the other hand, serve the vital 
role of building regional capacity for innovation by having a 
deep understanding of the communities, the education systems 
and the available resources of the regions they serve.
    Further investment in regional universities will allow our 
institutions to implement on a larger scale proven models for 
summer and school year programs that inspire students. In the 
case of students from small rural schools, these programs offer 
access to well-equipped classrooms and laboratories that their 
home districts simply cannot afford.
    Our rural districts are tremendous sources of talent and 
regional universities are in the best position to mine these 
rich veins of intellect and aspiration.
    We have also shown that investing in institutes and special 
programs for math and science teachers is important to help 
them renew their energy and to encourage them to persist in 
their teaching fields.
    In addition, more opportunities for internships are 
extremely important so that university students have the 
opportunity to apply the skills they are learning as they 
pursue math, engineering and science degrees.
    Incentives for industry to increase accessibility for these 
internships is important, especially as students in the regions 
are typically very much at home and plan on continuing their 
lives in this area and contributing to their local economies.
    As a result of our commitment to improving STEM education 
from kindergarten through graduate school, and through our 
aggressive pursuit of extramural funding, Texas A&M University-
Commerce has increased the success of our citizens through 
exposure to cutting edge research projects, state of the art 
equipment and effective faculty mentoring.
    Each day we prepare new generations of scientists and 
engineers inclusive of all demographic populations to meet the 
STEM work force needs of our region, our state and our nation. 
Once again, thank you for the opportunity to share those 
thoughts with you today.
    [The prepared statement of Dr. Jones follows:]

                  Prepared Statement of Dr. Dan Jones

    Chairman Gordon, Congressman Hall, Committee Members, other honored 
guests, we greatly appreciate the opportunity to testify at this 
hearing on regional innovation in Northeast Texas. Texas A&M 
University-Commerce plays an essential role in the continuing 
development of science and technology in Northeast Texas through 
innovative partnerships with industry and effective collaborations with 
community colleges and public schools. These efforts are vital as we 
strive to support the economic vitality of Northeast Texas and our 
nation. Key to the success of many of our initiatives is the constant 
support that Representative Hall extends to the university. A number of 
initiatives have been successfully implemented at our university that 
strengthen the ties between education and industry and will help to 
fulfill the mission of our institution as well as the intent of the 
Committee on Science and Technology.
    Nationwide, universities and agencies are focused on Science, 
Technology, Engineering, and Mathematics or ``STEM'' initiatives. At 
A&M-Commerce, we have added another very important letter to the STEM 
acronym: E for Education, in the formation of our STEEM project. With 
funding from the Greater Texas Foundation, Project STEEM focuses on 
enabling teachers and students to enhance their science, technology, 
education, engineering, and mathematics skills through project-based 
activities with scientists and research faculty at the university. The 
project includes two summer camps known as the X-Teems Academy and the 
Infinity Institute. We are tracking participants to monitor college 
matriculation rates and persistence in STEM fields. Two of our STEEM 
students have received full scholarships for four years to attend MIT. 
These are students from small rural communities in Northeast Texas. We 
will work this year to disseminate and replicate the STEEM model to 
bring more opportunity to rural areas.
    We have secured grants from several Federal agencies, including the 
National Science Foundation, which focus on increasing the number of 
students, especially at the K-12 levels, who aspire to careers in STEM 
areas. Our faculty work closely with K-12 teachers and students to 
expose them to cutting-edge research and the benefits to society. In 
only its first year, the Maximizing Motivation-Targeting Technology 
(M2T2) project funded through NSF Innovative Technology Experiences for 
Students and Teachers (ITEST) initiative has increased STEM skills in 
middle school students and the motivation to excel in math and science. 
Video game technology is the motivation and high-level physics and 
other science concepts are explored in summer science camps. Fifty 
students are served each year in the M2T2 project and 35 teachers are 
pursuing a master's degree in science or math. Surveys of student 
participants in both the
    STEEM and M2T2 programs indicate that a greater number of students 
are now considering careers in STEM fields which will positively impact 
the STEM workforce in our region. Teachers report improved teaching 
strategies in the STEM content areas.
    Partnerships with industry also support our preparation of 
tomorrow's STEM workforce. Through funding from L-3 Communications 
Integrated Systems, our faculty have developed high-performance 
computing methods and capabilities which will provide our faculty and 
students with research and educational opportunities currently not 
available in the area. In addition, high schools, middle schools, and 
charter schools in both Commerce and Greenville participated in 
Operation Spark, which aims to:

        <bullet>  foster an interest in math and science among students 
        in grades 6-9,

        <bullet>  increase proficiency in math and science among 
        students in grades 6-9, and

        <bullet>  increase teacher proficiency in math and science 
        instruction.

    There are five components to the grant: Strands, Math and Science 
Saturday, Family Math and Science Night, Professional Development, and 
Scholarship. The curriculum components of Operation Spark were 
developed through discussions between the A&M-Commerce project leaders 
and L-3 Communications Integrated Systems contacts. The Strands are 
taught to A&M-Commerce undergraduate and graduate students who then go 
into the local schools to demonstrate and teach the content to students 
in grades 6-12. Strands is based on the notion that college students 
majoring in math and science will positively impact middle and high 
school students due to their closeness in age and experience, which 
will foster both learning and a positive perception of math and science 
in these students. This concept is known as peer-led team learning.
    Community colleges are extremely important to A&M-Commerce. In the 
fall of 2008, only 18% of baccalaureate graduates had entered the 
university as full-time freshmen, while 82% had entered as transfer 
students. Fifty-six percent of these graduates had completed at least 
30 semester credit hours at a Texas community college. Because of these 
unique demographics, we have actively pursued grants to build the 
capacity of community colleges students to be successful when they 
transfer into our STEM programs. Four different projects funded through 
NSF support community college students, either while they are still 
enrolled at the community college or when they transfer to the 
university. These are: Course, Curriculum, and Laboratory Improvement 
(CCLI); Scholarships in Science, Technology, Engineering, and 
Mathematics (S-STEM); Research in Undergraduate Institutions (RUI); and 
the Research Experience for Undergraduates (REU). Through these and 
other special projects, a great number of community college students 
have been involved in leading-edge research activities at our campus 
and have gone on to pursue bachelor's and master's degrees in STEM 
disciplines.
    Our faculty members in physics, biology, and chemistry have 
received additional research grants, enabling a large number of both 
undergraduate and graduate students to engage in cutting-edge research. 
This research experience has enabled these students to pursue doctoral 
degrees at very prestigious institutions across the state and nation.
    Regional universities are sources of regional innovation. Many Tier 
I universities have a wonderful research focus but target their efforts 
toward areas supported by large donors or national needs for research. 
Regional universities serve the vital role of building regional 
capacity for innovation by having a deep understanding of the 
communities, the education systems, and the available resources of the 
regions in which they are located. Further investment will allow 
regional universities to implement on a larger scale proven models for 
summer and school year programs that inspire students. In the case of 
students from small rural schools, these programs offer access to well-
equipped classrooms and laboratories that their home districts simply 
cannot afford. Our rural districts are tremendous sources of talent, 
and regional universities are in the best position to mine these rich 
veins of intellect and aspiration. We have also shown that investing in 
institutes and special programs for math and science teachers is 
important to renew their energy and encourage them to persist in their 
teaching fields. In addition, more opportunities for internships are 
also extremely important so that university students have the 
opportunity to apply the skills they are learning as they pursue math, 
engineering, and science degrees. Incentives for industry to increase 
accessibility for these internships is important, especially as 
students in the region are typically very much ``at home'' and plan on 
continuing their lives in this area and contributing to their local 
economies.
    As a result of our commitment to improving STEM education from 
kindergarten through graduate school and through our aggressive pursuit 
of extramural funding, Texas A&M University-Commerce has increased the 
success of our citizens through exposure to cutting-edge research 
projects, state of the art equipment, and through effective faculty 
mentoring. Each day we prepare new generations of scientists and 
engineers inclusive of all demographic populations to meet the STEM 
work-force needs of our region, the state, and the nation.
    Thank you for this opportunity and I am happy to answer any 
questions.

                      Biography for Dr. Dan Jones

    Dr. Dan Jones is President and CEO of Texas A&M University-
Commerce. Prior to his appointment, Dr. Jones served as Provost and 
Vice President of Academic Affairs at Texas A&M International 
University in Laredo, Texas; and as Dean of University College at the 
University of Houston-Downtown. He began his teaching career as an 
instructor of English at Casper College, Casper, Wyoming. Dr. Jones 
earned his B.J. in Magazine Journalism (with highest honors) and B.A. 
in English (highest honors) from the University of Texas at Austin. He 
has an M.A. in English from Rice University, as well as an M.A. in 
American Studies from the University of Iowa. He received his Ph.D. in 
American Studies, also from the University of Iowa. He was a charter 
member of Phi Kappa Phi at the University of Houston-Downtown, where he 
was also given the Service Excellence Award and the Student Government 
Association award for Outstanding Faculty Member. He was also a charter 
member of Phi Kappa Phi at Texas A&M International University. His 
professional memberships include the American Studies Association, the 
Far West Popular Culture Association, the Popular Culture Association, 
and Phi Beta Kappa. Born in Bartlesville, Oklahoma, he is married to 
Jalinna Jones, and has two daughters: Allyson, 26, and Aislinn, 11. He 
enjoys running, traveling, and spending time with his family.

    Mr. Hall. Thank you very much and also I want to thank Bill 
Whitfield, long time mayor who just returned from Europe on a 
trip selling Collin County for people were trying to--Mayor, 
are you still with us? Thank you very much for your service. 
You're still working.
    Now, Jerry Madden, our State Rep--is Jerry here? Thank you, 
Jerry. Jerry was on the Commissioner Court here for a lot of 
years. Next we have Patrick Humm, President of Hie. Am I saying 
that right, H-i-e, Hie? Can't hardly mispronounce that, can I?
    But I was just in the back there and looking with Judge 
Self and others at the TeraStack Solution and what you could do 
with that. I know you're gonna talk about that a little bit.
    But I just thought back to when my first days as County 
Judge out in Rockwall County in 1950, I had a big chief tablet, 
a cedar pencil and now, look what you have, what you brought 
here for us. Tell us more about that. We're honored to have you 
here. You do have five minutes. I appreciate it if you can stay 
within.

    STATEMENT OF MR. PATRICK ALAN HUMM, P.E., CHAIRMAN AND 
                   PRESIDENT, HIE ELECTRONICS

    Mr. Humm. Thank you Chairman Gordon and Ranking Member 
Congressman Hall. It's my privilege to testify before the House 
Science and Technology Committee this morning as well as sit at 
the table here with Dr. Israel and Dr. Jones, Martin Izzard, 
Bill Sproull and Tom Luce.
    My name is Patrick Humm, Chairman and President of Hie 
Electronics. Our company manufactures and sells the TeraStack 
Solution. There's one in the next room which you can take a 
look at. Our product is intended for government, commercial and 
industrial users.
    Our system securely stores critical data for periods up to 
and beyond 50 years with high data integrity. Data storage is a 
huge and rapidly growing and expanding market which will have 
an annual spend of $55 billion a year by the end of the next 
decade.
    Because our product is an innovative, green and secure 
means of storing our nation's data for such extended periods of 
time, our potential growth may result in as large as a $2.5 
billion revenue business by 2017.
    TeraStack Solution is a unique hybrid combination of the 
latest technologies in computing. It's a breakthrough for long-
term data integrity, durability and reliability. While the data 
stored can vary, e-mails, electronic medical records, digitized 
documents, satellite imagery, video surveillance, data used in 
criminal records and criminal investigations and, in fact, 
we're being looked at for the Hubble Space Telescope.
    The TeraStack Solution has one further advantage, it's an 
energy efficient, green data storage product. As compared to 
current data storage systems, our product is up to 90 percent 
more energy efficient and operates with a nominal power draw of 
500 watts which is the power of a single 110 wall outlet. Our 
product significantly lowers the energy consumption and cooling 
cost of data centers, reducing electronic waste of energy.
    We are actively involved in the Northeast Texas Innovation 
Economy, and have been for decades, its educational 
institutions and businesses. Our customers include architects, 
pharmaceutical companies, the U.S. Air Force and a Fortune 100 
company.
    Hie Electronics currently has a 30 person staff, and we're 
approximately $2 million a year in revenue, so we are an 
emerging tech company. We're located here in McKinney. Our 
employees have decades of experience with Texas Instruments 
(TI) and other local tech companies. TI's also one of our 
suppliers.
    One of the most important aspects of our startup is the 
ongoing generational transfer of engineering process, what I've 
heard called ``engineering voodoo knowledge'' to the younger 
staff that we have employed. Hie Electronics is proud to employ 
veterans and an active duty military spouse. Our company also 
pays it forward with an intern program that employs some local 
college students, SMU, UTD, University of North Texas, A&M, 
Texas Christian and, yes, Collin College. Several of our 
interns have become full-time employees with the company.
    Hie Electronics is one of the companies that your Committee 
wants to see be successful. As a technology manufacturer and 
green job employer, we are developing a clean technology, 
contributing and maintaining our country's competitiveness, and 
creating jobs for the future.
    The topic before us today is to identify regional 
innovation elements necessary for companies like ours to 
develop and grow the Nation's high tech economy. Simply put, in 
the beginning, it's a steady, available investment stream that 
helps launch a startup and then fuels the development of 
innovation and, ultimately, a competitive world market product.
    Early stage capital funding is critical to small high tech 
companies. Private funding from angel investors of high net 
worth typically starts the process and then it moves to private 
equity groups. Often at this stage a venture capital firm will 
come in, take 50 percent control, and exit the founders and 
flip the company.
    An alternative, state based funding like the Governor's 
Emerging Technology Fund can provide capital with different 
requirements. We might also mention McKinney Economic 
Development Corporation at this time.
    Hard work by those who know the most about new technology 
can allow a company to fully contribute to the local economy. 
We actively seek support from all regional economic incentive 
vehicles and we'll be working with the ETF and the MEDC.
    A thought for your Committee: consider how Singapore helps 
new technology companies with considerable tax incentives, 
double depreciation on first year capital expenses, perhaps 
giving tax deductions to angel investors who initially 
capitalize companies like ours and, of course, grants helping.
    Regarding national innovation, we heartily thank you for 
your role in developing ARPA-E opportunities as well in 
streamlining the cumbersome government procurement process. The 
reality is it takes generally two years to be vetted by 
government agencies for the purpose of contracting and 
certification, and then you've got to get by the beltway 
entities who have the contracts already in place.
    For every day a new technology waits in the wings of 
bureaucracy, the opportunity cost for the Nation increases, 
while our foreign competitions delivers products faster than we 
are able to. Viable contracts in capital funding for newly 
developed products are critical to our sustainment and growth.
    Hie Electronics wants to be a green employer, expand our 
American-based manufacturing, meet the increasing demand for 
green, secure long-term data storage, and contribute to our 
Nation's effort to become energy independent.
    Thank you. Personally it's humbling for me to have been 
asked to submit constructive input. We are persistent in our 
pursuit of excellence and need your help to deliver the promise 
of high tech, good paying jobs for our youth through local 
innovation. Thank you.
    [The prepared statement of Mr. Humm follows:]

             Prepared Statement of Patrick Alan Humm, P.E.

    Thank you, Committee Chairman Congressman Bart Gordon and Ranking 
Member Congressman Ralph Hall. It is my privilege to testify before the 
House Committee on Science and Technology.
    My name is Patrick Humm, Chairman and President of Hie Electronics. 
Hie Electronics manufactures and sells the TeraStack Solution. Our 
product is intended for government, commercial and industrial users.
    Our system securely stores critical data for periods up to and 
beyond 50 years. Data storage is a huge and rapidly expanding market 
which is expected to have an annual market spend of over $55B within 
ten years.
    Because our product is an innovative, ``green'' and secure means of 
storing our nation's data for such an extended period of time, our 
potential growth may result in as large as $2.5B in revenue by 2016 or 
2017.
    The TeraStack Solution's unique combination of the latest 
technologies is a breakthrough for long term data integrity, durability 
and reliability. While the data stored can vary; e-mails, electronic 
medical records, digitized documents, satellite imagery, video 
surveillance, or data used in criminal prosecution; the longevity 
remains the same.
    The TeraStack Solution has one other fantastic advantage--it is an 
energy efficient, green, data storage product. As compared to current 
data storage systems, the TeraStack Solution is up to 90% more energy 
efficient and operates with a nominal power draw of just 500 watts; the 
power of a single 110 wall outlet. Our product significantly lowers the 
energy consumption and cooling costs of data centers, reducing 
electronic e-waste.
    We are actively involved in the Northeast Texas Innovation Economy, 
its educational institutions and businesses. Our customers include 
architects, pharmaceutical companies, the USAF and a Fortune 100 
company.
    Hie Electronics' currently has a 30-person staff and approximately 
$2M in annual revenue. Our office and manufacturing facility is located 
in McKinney, Texas.
    Our employees have decades of experience at Texas Instruments and 
other local tech companies. TI is also one of our suppliers. One of the 
most important aspects of our startup is the ongoing generational 
transfer of engineering process--what I have heard called ``engineering 
voodoo knowledge'' to the younger staff.
    Hie Electronics is proud to employ veterans and an active-duty 
military spouse. Our Company also ``pays it forward'' with an 
internship program that employs local college students (Southern 
Methodist University, University of Texas at Dallas, University of 
North Texas, Texas A&M University and Texas Christian University). 
Several graduates have become full-time employees with the company.
    Hie Electronics is one of the companies that your committee wants 
to see be successful. As a technology manufacturer and green job 
employer, we are developing a clean technology, contributing to 
maintaining our country's competitiveness, and creating jobs for the 
future.
    The topic before us today is to identify the regional innovation 
elements necessary for companies like ours to develop and grow the 
nation's high tech economy. Simply put, at the beginning it is a 
steady, available investment stream that helps launch a startup, and 
then fuels the development of innovation and ultimately, world market 
competitiveness.
    Early stage capital funding is critical to small high-tech 
companies. Private funding from angel investors of high net worth 
typically starts the process. Traditionally the next stage comes from 
private equity groups and venture capital firms. Often at this stage 
the VC takes over 50% control, exits the founders and flips the 
company.
    An alternative, state-based funding like the Governor's Emerging 
Technology Fund provides capital with different requirements. This 
funding vehicle allows technologies and companies to be built the old-
fashioned way, hard work by those who know the most about the new 
technology, and this allows the new company to fully contribute to the 
local economy.
    We will actively seek support from all regional economic incentive 
vehicles. For example, Hie Electronics will be looking for support from 
organizations like the McKinney Economic Development Corporation. The 
MEDC is a Texas 4a community based non-profit which supports economic 
growth.
    A thought for your committee--consider how Singapore helps new 
technology companies with considerable tax incentives. For example 
double deprecation on first year capital expenses, or perhaps giving 
tax deductions to angel investors who initially capitalize companies 
like ours.
    Regarding national innovation, we heartily thank you for your role 
in developing ARPAE opportunities. We look forward to utilizing this 
streamlined process. We ask your committee to continue to expedite the 
cumbersome government contracting and product certification processes. 
It is the government sector who calls now for innovation, green and 
secure products like ours. The reality is, it takes generally two years 
to be vetted by government agencies for purposes of contracting and 
certification.
    For every day new technology waits in the wings of bureaucracy, the 
opportunity cost for the nation increases, while our foreign 
competition delivers products faster than we are able.
    Viable contracts and capital funding for newly developed products 
are critical to our sustainment and our growth. Hie Electronics wants 
to be a green employer; expand our American-based manufacturing 
facilities; meet the increasing demand for green, secure, and long-term 
data storage; and contribute to our nation's effort to become energy 
independent and secure.
    Thank you, personally it is humbling for me to have been asked to 
submit constructive input. We are persistent in our pursuit of 
excellence and need your help to deliver the promise of high tech, good 
paying jobs for our youth, through local innovation.

                 Biography for Patrick Alan Humm, P.E.

SUMMARY:

    Patrick Humm is the Chairman and President of Hie Electronics, 
innovator and manufacturer of the TeraStack Solution, a green data 
storage product. Mr. Humm manages all aspects of this private 
corporation including; investor relations, product development, 
business planning, recruiting, staffing and daily management of the 35-
person team. He is an active, ``hands-on'' leader excelling in dynamic 
cross-functional challenging work environments.
    Hie Electronics developed the TeraStack Solution, an extendible 50 
terabyte optical data storage product, for use in applications where 
robust, secure storage is required. The system significantly reduces 
typical data storage power consumption and cooling costs. Hie 
Electronics manufactures and sells its TeraStack Solution to 
commercial users and government agencies for security applications, 
medical imaging and healthcare data, and long term data retention 
requirements.
    The versatile TeraStack Solution currently provides enhanced 
security surveillance video management for a major government defense 
contractor, lifetime electronic document storage for the medical 
research industry, comprehensive hierarchical data storage management 
of 3dimensional design and constructional drawings to an international 
architecture firm and medical imaging storage for a military 
application.
    Mr. Humm is a recognized leader in several aspects of the 
information systems sector, global project management, business 
startups and turnarounds, joint venture management, business 
development, acquisition and divestiture and business strategy and 
process development.
    During a 30-year career at Texas Instruments, Mr. Humm acquired 
extensive program management and startup experience in the high tech 
sector with proven accomplishments in the management of complex, 
worldwide manufacturing operations and systems implementations. He has 
supervised the largest systems reengineering and capital expenditure 
projects in Texas Instruments history as the Worldwide Inventory 
Director and the Worldwide Information Technology Technical Director.
    In addition, as MOSM Joint Venture Program Director, Mr. Humm 
directed monthly supervision of joint venture business plans, 
commercial partnerships product portfolios, new technology transition, 
capital expansion plans, and Board of Directors governance. His 
expertise included international business startups, turnarounds, 
strategy and process development, acquisitions, divestitures and 1PO 
process.
    Mr. Humm has a B.S. degree in Engineering Design and Economic 
Evaluation from The University of Colorado at Boulder and an M.B.A. 
from The University of Texas at Dallas. He has lived and worked in 
Japan, Italy, Singapore, Taiwan, Korea, and the United States.

    Mr. Hall. And thank you very much. And what you said and 
what all of you are testifying to here will go into a record 
and be available to the other Members of Congress who really 
need to hear the things that you're saying there.
    You can battle the destitute and nature over in South 
Africa, but you're getting into something that they really need 
to hear and I know the entire board and committee there agrees 
with you. Thank you.
    At this time, I recognize Martin Izzard, Vice President and 
Director of Digital Signal Processing Solutions--I can hardly 
say it--R&D Center of Texas Instruments. Great company.
    Sometime I'd like to talk to you about how Texas 
Instruments was started and how the great man that started it 
was going out to listen to it and see what we bought when he 
heard the Japanese were bombing Pearl Harbor.
    As an engineer he was great; but as for timing, he was 
really super. Thank you. We recognize you.

 STATEMENT OF DR. MARTIN IZZARD, VICE PRESIDENT AND DIRECTOR, 
     DIGITAL SIGNAL PROCESSING SOLUTIONS R&D CENTER, TEXAS 
                          INSTRUMENTS

    Dr. Izzard. Thank you. Thank you so much. Chairman Gordon, 
Ranking Member, all, thank you for the opportunity to testify 
today. It strikes me being in this courthouse. The last time I 
was in a courthouse like this was when I was sworn in as a U.S. 
citizen in 2002, so it's nice to be back. Those are good 
memories.
    Representing TI, I'd like to say TI appreciates the 
leadership of your Committee on so many critical issues, 
particularly the America COMPETES and the National 
Nanotechnology Initiative Amendment Act. TI also applauds the 
strong research investments provided in the stimulus and thanks 
you for your continued leadership on research funding.
    TI has a nearly 80-year history of innovation. While our 
products have changed over the years, we remain essentially a 
company of engineers and scientists. We've always looked to the 
future by investing in research and development to the tune of 
15 percent of sales in 2008.
    My role at Texas Instruments as I direct the Digital Signal 
Processing Solution R&D Center--yes, it is a mouthful--which is 
a core technology that enables continuous real world signals, 
analog signals such as voice or images, to be converted into 
digital form and interpreted.
    Our research focuses on communications, medical, video, 
vision and imaging, audio and voice and other applications that 
run in our integrated circuits. I also oversee our Kilby Labs 
which is a new and exciting initiative at TI with selective 
researchers.
    Engineers currently in the company and folks from 
university research programs can work full-time on high risk, 
high reward projects for several months to a year.
    Several projects are focused on power management critical 
to energy and medical applications, from chips that can better 
harvest the energy from the environment to ultra low power 
chips that are suitable implantable devices.
    The research involves the collaboration beginning with 
university professors and graduate students. I'll focus my 
comments today on the partnership TI has formed with the North 
Texas Innovation Eco-System. Quite simply, regional innovation 
capacity boils down to talent.
    A STEM educated workforce is essential to the success of 
companies like TI and to overall U.S. competitiveness. 
University research is essential for training graduate students 
and enabling breakthroughs by private sector innovations.
    In 2005, the State of Texas created a $200 million Emerging 
Technology Fund which we believe has been a wonderful tool for 
encouraging research and innovation in Texas.
    Recently the State Legislature approved new resources to 
grow additional in-state Tier 1 research capacity. Seven 
institutions were identified and received State funds to match 
other research sources such as those from TI.
    On September 1, the University of Texas at Dallas announced 
it had received 16 philanthropic gifts totaling more than 16.8 
million that were motivated in part by the availability of 
matching funds under this program.
    In greater Dallas, TI has tremendous research capacity 
right in our backyard. TI has provided financial and technical 
support with medical and electronics research involving UTD, UT 
Southwestern, and UT Arlington.
    In fact, we've sponsored research at UTD that has resulted 
in wireless medical sensors that are now being commercialized 
in a start-up company. Another example is TxACE, a $16 million 
collaboration between the Center at UTD that focuses on 
research in analog and radio frequency technology to address 
challenges in such areas as energy efficiency, healthcare and 
public safety.
    TI lead the effort to establish the Center and has endowed 
the director, analog design chair, and graduate student 
fellowships and has committed $2.7 million for research over 
three years. The Semiconductor Research Corporation also 
provided $1.2 million per year for three years. UTD and the UT 
system are providing 3.7 million with the State ETF matching 
4.5 million over three years.
    This collaboration of academia, industry and state 
government is an excellent example of how regional innovation 
is created. In addition to our research efforts, TI has a 
strong history and involvement in K-12 education and efforts in 
Dallas. A full catalog was submitted for the record.
    Last week the TI Foundation announced a $3 million grant to 
support teacher effectiveness for current math and science 
teachers in the Dallas area and to augment the UTeach Program 
to encourage math and science majors to enter teaching.
    So in TI's experience, the model research collaborations 
involve not only industry and university, but are greatly 
enhanced by the engagement of federal agencies and state 
governments.
    The most important step Congress can take is to provide 
regular, predictable, and sustained investments in basic 
physical science and engineering research, particularly at NSF, 
NIST, DOE, Office of Science, and job help.
    In STEM education, there must be an effort to scale 
programs with demonstrated results citing student achievement. 
There should be an emphasis on the fundamental math skills 
needed to succeed as STEM builds. As we build a STEM pipeline, 
we must also address immigration reform for highly educated 
professionals.
    Nearly half of the master's degree and over 70 percent of 
the Ph.D.'s in electrical engineering from U.S. universities 
are granted to foreign nationals. I came to the U.S. on an H1B 
and received my green card in 1991.
    Today hundreds of innovators at TI are stuck in multi-year 
works for green cards limiting the commercial potential and 
making international travel difficult. This process must be 
reformed if we are to attract and retain the world best's 
minds, especially those graduating from U.S. universities. I 
say again, especially those graduating from U.S. universities.
    Thank you for the opportunity to testify today. TI looks 
forward to continuing our close working relationship with this 
committee. Thank you, sir.
    [The prepared statement of Dr. Martin Izzard follows:]

                  Prepared Statement of Martin Izzard

    Chairman Gordon, Ranking Member Hall, thank you for the opportunity 
to testify today on Strengthening Regional Innovation. Texas 
Instruments appreciates the leadership of the Science and Technology 
Committee on so many critical issues, but particularly the landmark 
America COMPETES legislation and the National Nanotechnology Initiative 
Amendments Act.
    TI also applauds the strong research investments provided in the 
American Recovery and Reinvestment Act (ARRA) and 2009 omnibus and 
thanks you for your continued leadership on research funding. 
Historically, the federal government has been the primary source of 
basic research funds for universities and plays an especially important 
role in supporting higher-risk, exploratory research for which the 
economic benefits may not be realized for decades.
    TI has a nearly 80-year history of innovation. While our products 
have changed many times over the years, we have always fundamentally 
been a company of engineers and scientists. We have always looked to 
the future by investing in R&D. Based in Dallas, TI is the second 
largest U.S. semiconductor company and the world's fourth largest. 
While our headquarters and substantial manufacturing are located in 
Texas, TI derives 85% of its sales from overseas markets.
    TI is focused on developing new electronics that make the world 
smarter, healthier, safer, greener and more fun. We make chips that can 
improve energy production, distribution, and consumption--such as 
applications for renewable sources, smart meters, and energy efficient 
appliances.
    In 2008, TI invested 15% of sales in R&D. Like most other high-tech 
companies, much of this was geared towards shorter-term product 
development, but this figure does include significant investments in 
longer-term research both in-house and in collaboration with 
universities.
    I will focus my comments today on the research and education 
partnerships TI has formed within the North Texas innovation ecosystem. 
Quite simply, regional innovation capacity boils down to talent. A 
workforce educated in science, technology, engineering and math (STEM) 
is essential to the success of companies like TI and to overall U.S. 
innovation in a globally competitive environment. University research 
is a lynchpin for training graduate students and for enabling the 
breakthroughs vital to private-sector innovation.

TI Internal Labs

    I direct the Digital Signal Processing Solutions R&D Center, which 
is the core technology that enables continuous real-world analog 
signals such as voice or images to be converted to digital form and 
interpreted. Our research has applications in communications, medical, 
video, vision and imaging, audio and voice. TI also recently launched 
in-house lab efforts focused on solar and light-emitting diode (LED) 
technologies.
    I also oversee Kilby Labs--an exciting new initiative at TI. In 
conjunction with the 50th anniversary of the invention of the 
integrated circuit in 2008, TI launched Kilby Labs as a center of 
innovation designed to foster creative ideas for breakthrough 
semiconductor technology. The new labs build on IC inventor Jack 
Kilby's legacy of revolutionizing our lives through chip innovation.
    The lab allows selected TI researchers to work full time on a high-
risk, high-reward project for several months to a year. The research 
often involves collaboration with university professors and several 
graduate students are assigned to the lab through TI's co-op program. A 
board of business unit technical experts selects projects on a 
competitive basis from TI employee submissions. Selected projects must 
have financial sponsorship from a TI business unit. Currently, there 
are 7 projects selected from over 90 submissions. Several of the 
current projects are focused on power management critical to energy and 
medical applications, from chips that can better harvest energy to 
ultra-low power chips suitable for medical implantable devices.

Texas University Engagement

    TI has special relationships with Texas universities. TI founders 
Eugene McDermott, Cecil Green and Erik Jonsson helped establish the 
University of Texas at Dallas (UTD) in 1969 by providing the vision of 
a local science, technology, and research institution and donating the 
land for the campus. In 1986, UTD's engineering school was named in 
Erik Jonsson's honor.
    In 2003, TI announced it would build a new $3 billion manufacturing 
facility in Richardson, Texas. Although incentives were offered by 
sites around the world, one of the key factors was commitment by the 
State of Texas to invest $300 million at UTD to further develop 
research and engineering capacity and improve the innovation ecosystem 
of North Texas. Since that time, UTD's graduate engineering program has 
risen 20 spots in the US. News and World Report rankings, 20 new 
faculty have been added, and annual research expenditures have nearly 
doubled to $65 million.
    In 2005, the State of Texas created a $200 million Emerging 
Technology Fund which has been a wonderful tool for incentivizing 
research and innovation in Texas. The fund has three goals: invest in 
public-private endeavors around emerging scientific or technology 
fields that are likely to enhance the competitiveness of the state; 
match federal and other sponsored investment in science; and attract 
and enhance research talent superiority in Texas.
    In addition, the State of Texas Legislature recently approved 
resources to grow additional Tier 1 research capacity in the state, 
which TI strongly supported--The Texas Research Incentive Program 
(TRIP). Tier-1 is defined as a non-medical research university that 
supports more than $100 million annually in research expenditures. 
Texas currently has three Tier-1 research universities: UT Austin, 
Texas A&M, and Rice. The Legislature identified seven Texas 
universities \1\ that have made good progress towards this Tier-1 goal, 
and plans to make $25 million available to these institutions to match 
research gifts they receive. This mechanism enables these universities 
to leverage state funds based on new gifts that TI and others provide. 
As a result, these institutions will be better able to drive expansion 
of their own capabilities.
---------------------------------------------------------------------------
    \1\ UT Arlington, UT Dallas, University of North Texas, Texas Tech, 
UT El Paso, UT San Antonio, and University of Houston.
---------------------------------------------------------------------------
    On September 1, the University of Texas at Dallas announced it had 
received 16 philanthropic gifts, totaling more than $16.8 million that 
were motivated in part by the availability of matching funds through 
TRIP.
    In greater Dallas, TI has a tremendous resource in the research 
community right in our backyard. TI has provided financial and 
technical support for medical electronics research involving 
collaboration among UTD, UT Southwestern, and UT Arlington. We also are 
working closely with Baylor Health and Texas Health Resources. An early 
success story comes from UTD, where TI-sponsored research resulted in 
wireless medical sensors that are now being commercialized through a 
start-up company. The sensors use wireless technology to remotely 
monitor vital signs and transmit data. The larger MobileLab project on 
wireless health care at UTD has now received follow-on funding from 
Ericsson, Research in Motion, Samsung, and Apple.

Semiconductor Research Corporation
    The Semiconductor Research Corporation is a consortium of 
semiconductor companies that collaboratively funds pre-competitive 
university research in semiconductor technology and design.
    TI participates on technical advisory boards, routinely attends 
university research reviews and adds technical relevance to research 
efforts. TI's annual contributions in the past five years averaged well 
over $10 million, enabling SRC to fund more than $70 million of 
semiconductor research and support more than 1,000 science and 
engineering graduate students annually. I will highlight three SRC 
programs as model collaborations:
    TxACE, the Focus Center Research Program, and the Nanoelectronics 
Research Initiative (NRI).

TxACE
    TI led an effort within SRC to establish a $16 million 
collaboration center at UTD that focuses on research in analog and 
radio frequency technologies to address challenges in such areas as 
energy efficiency, health care, and public safety, which are uniquely 
reliant on analog technology. The center involves Southern Methodist 
University, Texas Tech, Texas A&M, and UT Austin, as well as 
universities outside Texas including Stanford and UC Berkeley.
    TI is providing $1 million to endow an analog design chair to serve 
as TxACE Director, is providing $500,000 to endow an analog design 
graduate student fellowship for the program, and has committed $2.7 
million for research projects over three years. The SRC is providing an 
additional $1.2 million per year for three years, UTD and the UT System 
providing $3.7 million over three years with the State Emerging 
Technology fund matching $4.5 million over three years. This 
collaboration of academia, industry, and government is an excellent 
example of how regional innovation is created.

Focus Center Research Program
    The Focus Center Research Program is a partnership between the 
semiconductor industry and the Defense Department (DARPA) to fund 
university research on semiconductor technology challenges at 38 
institutions nationwide. All funding goes directly to universities, and 
supports research centered on the key technical challenges to extending 
and moving beyond current chip-making process technology (CMOS). 
Federal funds are leveraged through an industry match, which is very 
rare for a basic research program. Participating Texas schools include 
UT Austin, UTD, and Texas A&M.

Nanoelectronics
    As my colleague Bob Doering testified before this Committee in 
April 2008, the NRI is recognized as a model collaboration that 
leverages funding and expertise from industry, the National Science 
Foundation, and the National Institute of Standards and Technology 
(NIST), and contributions from state and local governments.
    NRI supports basic university research in nanoelectronics at four 
regional centers involving 35 universities across 20 states. NRI 
efforts are primarily focused on finding a new switch with improved 
speed, energy efficiency, and/or cost compared to the field-effect 
transistor, which is today's workhorse for processing information.
    The NRI started as a result of the U.S. semiconductor industry 
recognizing that university research in nanoelectronics must be 
accelerated to retain technical leadership and capture the economic 
benefits. In 2005, six semiconductor companies, including TI, agreed to 
provide industry funds to form a consortium that would fund university 
research in nanoelectronics. From the beginning, it was clear that the 
scope of the challenge and basic science questions involved would 
require engagement and resources from the federal government, and 
conversations began with the NSF and NIST.
    The third regional NM center, the Southwest Academy of 
Nanoelectronics (SWAN) is based at UT Austin and involves UTD, Rice, 
Texas A&M, as well as other universities outside Texas. In establishing 
SWAN, the State of Texas, the University of Texas System, and Texas 
industry collaborated to establish a complementary package of leveraged 
support. The resulting $30 million of matching funds is focused on 
attracting and supporting top academic researchers in nanoelectronics. 
Specifically, this is a three-way match, with the State of Texas 
contributing $10 million from the Emerging Technology Fund, the 
University of Texas System matching with $10 million, and the remaining 
$10 million being contributed by Texas industry for endowed chairs, 
including $5 million from TI.
    The other regional NM centers provide similar state and local 
leverage to industry, NSF, and NIST funds. While the states have 
provided these resources to the four regional NRI centers, it is 
important to note that the regional centers are ``virtual'' and involve 
researchers from several universities outside these states, thus the 
local investments benefit research on a national level.

STEM Education
    Talent is needed to sustain innovation in Northeast Texas--whether 
at TI, other innovative companies, or at our local campuses. It is 
critical that we both welcome talent from around the world and build 
the pipeline of U.S. students in the STEM disciplines.
    Education is the highest priority for corporate philanthropy at 
TI--a heritage of involvement that traces back to the company's 
founders. Each year, TI and its corporate foundation make financial 
contributions totaling millions of dollars in grants and other gifts to 
schools, educational programs, and universities. TI seeks opportunities 
for fundamental change by developing and supporting programs with 
measurable success that can be replicated elsewhere. A full description 
of TI's community education involvement is attached to this testimony 
in Appendix 1 & 2. I'd like to highlight a recent announcement and a 
promising initiative in mathematics.

Teacher Effectiveness
    Last week, the TI Foundation announced a $3 million investment to 
advance the effective, innovative teaching of STEM subjects. Two major 
grants of $1.5 million each will go to proven, successful programs:

        <bullet>  Laying the Foundation (LTF), to provide training and 
        professional development for current math/science teachers in 
        three Dallas-area school districts (Dallas, Richardson and 
        Garland school districts), and

        <bullet>  UTeach, to train new certified math/science teachers, 
        in conjunction with the National Math and Science Initiative 
        and three area universities (the University of North Texas, UT 
        Arlington and UTD).

    LTF is a non-profit that provides a comprehensive pre-Advanced 
Placement training program including resource and planning guides, in-
district training, summer institutes, conferences, and online 
resources. The goal is to support teachers as they prepare students in 
grades 6-11 to excel in AP and other college-level courses.
    UTeach is an innovative teacher preparation program that recruits, 
prepares, and retains STEM majors to become qualified math, science, 
and computer science teachers. The grants will fund additional master 
teachers at two existing UTeach programs at UNT and UTD and will 
establish a new program at UTA, bringing the total number of UTeach 
universities to 14 nationwide.
    This local investment will increase the output and effectiveness of 
qualified math and science teachers required in the Dallas area now and 
in the future.

MathForward
    Math is the fundamental skill for science and engineering. It is 
easy to get students excited about science and engineering, but this 
opportunity to attract students is wasted if they cannot do the math. 
TI's Education Technology business developed and implemented 
MathForward, a research-based program that combines instruction, 
professional development, curriculum integration and classroom 
technology to help middle and high school students build confidence and 
achievement in mathematics, particularly focused on algebra and algebra 
readiness. The intervention program has proven successful in 
significantly raising the test scores of students who previously failed 
state math assessment tests. Most pilot participants were African-
American or Hispanic and most were from economically disadvantaged 
circumstances. First launched at a junior high in the Richardson 
Independent School District, today more than 40 schools from eight 
states participate.

Community Colleges
    Community colleges are an important element of the economic 
development, workforce, and educational ecosystem of our community and 
should be contemplated when developing national strategies for creating 
climates conducive to economic growth.
    One of the essential roles community colleges have historically 
played in North Texas regional workforce development is providing 
manufacturing technician training. TI's manufacturing facilities, or 
``fabs'' require technicians to have an associate's degree. Fab 
technicians perform technical tests and engineering experiments, and 
need to be able to apply advanced math skills and pass a test on basic 
electronics, applied physics, and basic chemistry.
    The community colleges serving Dallas and Collin counties (Texas)--
Dallas County Community College District (DCCCD) and Collin Community 
College District (Collin)--have combined to receive over $27 million in 
workforce training grants from local, state and federal sources in 
2008-09. Those investments have been deployed to establish and 
implement a variety of training programs that range from English as a 
Second Language to Lean Manufacturing and Six Sigma.
    Increasingly community colleges also serve as a critical pathway to 
a bachelor's degree. Community colleges serve close to half of the 
undergraduate students in the United States.\2\ Currently, more than 
600,000 students are now enrolled in community colleges in Texas; that 
enrollment represents 75 percent of all freshmen and sophomores in 
Texas and 78 percent of all minority freshmen and sophomores as 
well.\3\
---------------------------------------------------------------------------
    \2\ American Association of Community Colleges (2005).
    \3\ Texas Higher Education Coordinating Board.
---------------------------------------------------------------------------
    To increase college going rates, the TI Foundation, since 1999, has 
supported Rising Star scholarships to enable Dallas County students in 
the top 40 percent of his or her high school class to attend any Dallas 
County community college. Rising Star scholarships go to students who 
might not otherwise be able to afford college, and include tuition, 
fees and books for the two-year degree. More than 9,000 Rising Star 
students have enrolled in the Dallas County Community College District 
since the program's inception. Additionally, TI created a $1 million 
endowment for Collin College in 2004 for the Science, Math, Advanced 
Research and Technology (SMART) Educational Initiative. SMART provides 
scholarships for academically qualified community college and high 
school students who intend to continue pursuit of four-year degrees in 
engineering or related fields or to take college-level coursework. The 
goal is to fuel a pipeline of highly skilled professionals in careers 
in science, math and engineering disciplines. By the end of 2008, 
approximately 32 scholarships had been awarded.

Recommendations
    As illustrated by TI's experience, model research collaborations 
involve not only industry and universities, but are greatly enhanced by 
the engagement of federal agencies and state/local government. One of 
the most important steps Congress can take is to provide regular, 
predictable sustained investments in basic research. NSF, NIST, DOE 
Office of Science, and DARPA are the key agencies that fund physical 
sciences and engineering research-critical disciplines for the 
semiconductor industry that unfortunately have been relatively 
underfunded for decades.
    Industry can play an important role in establishing the translation 
of basic research into commercialization by providing insights on 
appropriate goals and needs for both ``directed'' basic research and 
its potential commercialization. This input is provided through 
advisory panels, consortia, and various industry advisory liaisons' 
input into federal agency merit review processes. For example, I serve 
as an industry advisor on NIST's Technology Innovation Program, which 
supports translational projects in areas of national need such as 
energy, security, infrastructure, and medical. Direct agency 
partnership with pre-competitive industry consortia is also a very 
effective mechanism to achieve close industry-government collaboration 
and facilitate commercialization of promising research.
    State governments also play an important role in leveraging federal 
funds and facilitating commercialization from universities to industry. 
Several states like Texas have mechanisms to support these efforts. In 
addition, state governments are also critical in supporting public 
research universities from an overall budget perspective.
    While both Congress and many states have focused on the importance 
of STEM education, there must be an effort to scale programs that are 
demonstrating results tied to student achievement. In particular, there 
should be an emphasis on the fundamental math skills needed to succeed 
in STEM fields.
    Finally, we must address immigration reform for highly-educated 
professionals. Nearly half of the master's degrees and over 70% of 
Ph.D.'s in electrical engineering from U.S. universities are granted to 
foreign nationals. While we continue to grow the U.S. STEM pipeline 
longer term, we must retain this talent. I came to the U.S. on an H-1B 
and received my green card. Today, hundreds of innovators at TI are 
stuck in multi-year waits for green cards, limiting their promotion 
potential and making international travel difficult. This process must 
be reformed if we are to attract and retain the world's best minds, 
especially those graduating from U.S. universities.
    Thank you for the opportunity to testify today. TI looks forward to 
continuing our close working relationship with this committee.

                    Biography for Dr. Martin Izzard

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Hall. Thank you. I know you'll express our appreciation 
to Eric Johnson and his family and Gene McDermott. Who was the 
other one that was such a great leader at TI? Milton----
    Mr. Izzard. Cecil Green.
    Mr. Hall. Cecil Green, great man, University of Texas at 
Dallas. They all hook in there and made major contributions to 
establishing that facility here in the Texas area. Thank you.
    Next we'll hear from Bill Sproull, Vice Chairman, Texas 
Emerging Technology Fund Advisory Committee, and we've asked 
him to kind of go into describing the Texas Emerging Technology 
Fund and its objectives and also talk to us about the most 
important elements that are necessary to develop regional 
innovation capacity and grow the high tech companies.
    That's the basic thrust of why we're here, is to point that 
out and to see how we can do it better and how we get 
recognition for what we also do. Thank you.
    Mr. Sproull. I'll try to do it in my five minutes.
    Mr. Hall. All right, sir.

   STATEMENT OF MR. WILLIAM C. SPROULL, VICE CHAIRMAN, TEXAS 
          EMERGING TECHNOLOGY FUND ADVISORY COMMITTEE

    Mr. Sproull. Chairman Gordon, Congressman Hall, thank you 
for inviting me here today to talk to you about two subjects 
I'm deeply passionate about: ETF, as it's known, and regional 
innovation. I've made a career out of professional economic 
development on both the local and regional level and 
interestingly was Economic Development Director of this town, 
here in McKinney back in '96 to 2000.
    Chairman Gordon talked about fast growth. This town was 
about 30,000 in population. I think we're at about 125,000 now. 
It's grown rather quickly. And you also spent time in Dallas 
and Kansas City and other places.
    Most of my professional career the last few years has been 
focused on technology of economic development, and that's how I 
got involved with our Governor Rick Perry back in 2005 in 
helping create the Texas Emerging Technology Fund.
    It really has three purposes. The first is to invest in 
early stage companies that have potential to create jobs and 
wealth in Texas. The second is to make grants to research 
consortiums composed of industry, government, universities and 
others to apply research that leads to commercialization.
    The third to make grants to public universities to recruit 
world renowned or nationally ranked researchers who will take 
basic research from the bench, take it to applied research and 
commercialize that by creating new companies and patents that 
can be utilized. Much of the impetus for the creation of this 
fund had to do with this fact.
    Back in about 2005, Texas public universities were prolific 
at drawing down Federal research finance and private research 
contracts. In fact, at this time, we're funding--operating 
about $2 million per biennium in externally funded research.
    But unfortunately, the licensing revenue that got patents 
that had produced all that research was only about 20 or $30 
million a year. And it just seemed like we were not getting the 
bang for the buck out of all this research.
    So there wasn't a significant collaboration occurring with 
industry trying to commercialize those results. So in 2005, the 
Texas Legislature created this legislation. The ETF put $200 
million in the bank for us to use.
    The legislation prescribed that we create regional centers 
of innovation and commercialization that are really the entry 
points for the fund. We have seven of those in different 
regions of the state and one statewide for life science 
companies.
    But there's a 17 member advisory board--I'm the vice chair 
currently-- that would take applications from regions, get them 
and then recommend to our trustees for approval as trustees of 
the Governor, Lt. Governor and Speaker, and they have to 
unanimously approve an investment out of the fund.
    So what's the result today? Since 2005--and the 
legislature, by the way, has appropriated an additional $275 
million into the funds, so we've had close to a half a billion 
dollars. We funded a total of 106 projects, early stage company 
investments, research matching grant consortiums and research 
talent acquisitions.
    They've been awarded over $240 million of ETF money with 
another 31 projects in the pipeline worth almost $60 million. 
By year's end, we'll probably have about 100 companies in our 
portfolio that I would say were in an area that some of us 
describe as that ``valley of death'' of pre-revenue growth 
where they are trying to commercialize their technology.
    Others that are more optimistic call it the ``mountain of 
opportunity''. And I think that we'll have a number of great 
successes out of that. We've also landed 45 world class 
researchers on our teams and 14 public universities and we've 
invested $74 million to recruit those teams.
    And industry has followed on--as an example that TI gave, 
of adding another $200 million on top of that. So we know that 
we're leveraging private dollars in the amount of seed money 
that we're putting through public dollars.
    We're technology agnostic. It can be semiconductors, 
biotech devices. We just want the best opportunities to create 
wealth, and as you said, Mr. Chairman, really raise the 
standard of living for all Texans. We've had over 1,000 
seasoned experts helping to get these proposals that volunteer 
their time like I do on the board or on regional centers around 
the State.
    And every company that we fund has to have a collaborative 
relationship with one of the institutions of higher education 
in the state, so we really make sure that we're leveraging that 
research step. And in North Texas, we've had almost 30 products 
worth $60 million that we've funded out of there.
    So I can safely say I think this has been a great catalyst 
for wealth creation, job creation in our state. It's helped to 
create new cultural entrepreneurials in the state, particularly 
in our universities.
    I want to use the remaining couple of--a minute just to 
talk about regional innovation and capacity very quickly. 
Clearly Dr. Izzard referred to the importance of continued 
Federal funding for science. He referenced the fact that we 
recently passed legislation to create more Tier 1 research 
universities in Texas to have a matching grant formula for 
that.
    It continues to be important that we have an 
entrepreneurial culture that tolerates risk and rewards 
success, that we have developed state funding. But I want to 
underscore one thing that he mentioned about high skilled 
immigration.
    There's a tsunami out there in industry. My paying job is 
that of leading the largest trade association in Texas. And I 
can tell you that a lot of our employers, they're facing a 
massive amount of pressure over the next couple years with 
baby-boomers retiring out of the work force.
    And it's a number game. Where are we gonna get the workers 
from? The high school, folks, and clearly part of that solution 
has to be a better way to handle high school immigration to 
this country to make it easier to retain talent that we're 
educating in our own universities.
    And then the other piece that Mr. Luce talked about that is 
vitally important is inspiring more U.S. born kids to 
university STEM disciplines. So I thank you for allowing me to 
come here and talk with you for a few minutes this morning. 
I'll be happy to answer any questions you may have. Thank you.
    [The prepared statement of Mr. Sproull follows:]

                Prepared Statement of William C. Sproull

    Chairman Gordon and Congressman Hall, good morning. It is my honor 
and pleasure to have been asked by you to come and testify at this 
field hearing of the House Science & Technology committee. You have 
asked me to describe the Texas Emerging Technology Fund, its 
objectives, activities and successes, and its role in and relationship 
to the North Texas innovation economy. You have also asked me to tell 
you what I see as the most important elements necessary to develop 
regional innovation capacity and grow the high-tech economy. I am happy 
to answer both these questions and others you might ask of me today.
    It might be important for you to know a bit about my background as 
it relates to the topics I'll cover this morning. I've been in the 
career of professional local and regional economic development ever 
since I graduated from college. Much of my professional focus over the 
last several years has been on technology-led economic development, the 
innovation eco-system, and entrepreneurship.
    Interestingly, I used to work as President of the McKinney Economic 
Development Corporation, the community we're in today. At the time I 
started here in 1996, McKinney was just about 30,000 in population, and 
now has grown quickly to over 125,000. I've also worked in much larger 
cities, like Kansas City, where I began my career, and in Dallas, where 
I ran a large regional economic development organization. Today, I head 
a trio of organizations, of which the one most pertinent to today's 
discussion is the Metroplex Technology Business Council. It is the 
largest membership based trade association for technology companies in 
the state of Texas.
    Because of my background in economic development and technology, I 
became involved with our Governor, Rick Perry, in the creation of the 
Texas Emerging Technology Fund back in 2005. It is an economic 
development fund whose purposes are:

        <bullet>  To invest in early stage technology companies who 
        have the potential to create jobs and wealth in our state;

        <bullet>  To foster research consortiums between industry, 
        universities, the federal government and non-profits to do 
        applied research leading to commercialization of new products; 
        and

        <bullet>  To make grants to public universities in Texas to 
        recruit world-renown or nationally ranked researchers who will 
        translate basic into applied research in their given domain 
        expertise and help launch new products and companies.

    Much of the impetus for the creation of this fund had to do with 
the fact that Texas universities, who have a prolific ability to draw 
down federal and private research dollars, have by and large failed to 
capitalize on their massive research spend in terms of translating that 
into intellectual property with the potential and support to become 
commercialized in the private marketplace, thus creating new jobs and 
wealth. To give you a sense of the depth of this problem at the time, 
our universities were performing almost $2 billion of externally funded 
research per biennium, yet the licensing revenue from the patents 
produced was only in the tens of millions of dollars. In addition, few 
universities had the infrastructure, culture or incentive to foster an 
entrepreneurial climate in and around them.
    So, in 2005, the Texas Legislature approved Governor Perry's vision 
by passing legislation to create the Emerging Technology Fund, or ETF 
as it's known, and initially fund it with $200 million. Since then, the 
legislature has twice met and appropriated an additional $275 million 
into the fund. The legislation also called for the establishment of 
regional centers of innovation and commercialization that would take 
applications to the fund and build an entrepreneurial ecosystem. There 
are now 7 regional centers throughout the state and one state-wide 
center just for life science companies. The legislation also 
established an advisory committee, or Board, of 17 people, on which I 
have served since its inception in 2005, and for which the Governor 
just reappointed me to serve as the Vice-Chairman for the next two 
years. This advisory board considers applications that make it through 
the regional innovation centers, considers them, and recommends which 
ones should be approved by the Fund's Trustees, namely, the Governor, 
Lt. Governor and Speaker of the House. A decision to make an investment 
out of the fund requires the unanimous support of all three Trustees.
    So, what have been the results?

        <bullet>  A total of 106 projects (early stage company 
        investments, research matching grant consortiums, & research 
        talent acquisition) have been awarded over $240 million in ETF 
        money, with another 31 projects worth almost $62 million in 
        either the contract or final approval stages.

        <bullet>  By year's end, we'll easily have over 100 early stage 
        companies in our portfolio, making the ETF the most active 
        early stage investment fund in the country, and creating a 
        global competitive edge for Texas. National recognition has 
        given to the fund as a model to be replicated on both the 
        federal and state levels.

        <bullet>  Also since the creation of the fund, 45 world class 
        researchers and their teams with the experience and culture to 
        commercialize their research have been recruited from around 
        the world to 14 Texas public universities. Today, the fund's 
        investment of over $74 million to recruit those teams has 
        resulted in attracting over $200 million additional dollars 
        from private and federal sources into those institutions . . . 
        and we're still counting.

        <bullet>  The fund is open to all technology sectors for 
        investment and currently has a very diverse portfolio of 
        medical devices, energy, nanoelectronics, semiconductors, 
        pharmaceuticals, biopharmaceuticals, IT, biotechnology, 
        robotics, nanomedicine, defense, aerospace telecommunications, 
        and software.

        <bullet>  Over 1,000 seasoned experts (investors, 
        entrepreneurs, economic developers, researchers, and industry 
        representatives) volunteer their time on the state advisory 
        committee and the 8 regional centers around the state to 
        evaluate, coach, mentor and select quality investment 
        opportunities for the state to invest in.

        <bullet>  The innovation capacity of the state's rural areas 
        has been dramatically improved since the inception of the fund. 
        Those areas have seen significant success which has resulted in 
        investments into multiple companies and universities in those 
        regions. Additionally, angel investment funds have formed in 
        these regions to invest in early stage technology companies 
        that didn't exist before.

        <bullet>  Every company receiving an investment from the ETF 
        has a collaborative relationship with one or more Texas 
        institutions of higher education. Thousands of entrepreneurs 
        have been counseled through the ETF process.

        <bullet>  In North Texas, the ETF has funded 28 projects to the 
        tune of over $60 million, which has been matched by private and 
        other public investments in the millions of dollars. Our 
        universities have a greater capacity for and relationship with 
        the entrepreneurial ecosystem, and cutting edge applied 
        research is being done in conjunction with industry in areas 
        such as advanced semiconductors, atomically precise 
        manufacturing techniques, and nanomaterials and 
        nanoelectronics. Better linkages now exist between the 9 
        incubators in our region, the universities and our angel and 
        venture capital communities.

    I can safely say that the ETF has been a catalyst for the creation 
of new companies, a new entrepreneurial culture in our universities, 
and new wealth and jobs in our state, at precisely the time when we 
have needed it the most since the dot-com bust in the early part of 
this decade. The ETF model leverages federal research and private 
investment dollars with a relentless focus on commercialization of 
intellectual property.
    You've also asked me to comment on the requirements for regional 
innovation capacity and how to grow the high tech economy. The other 
speakers today certainly will address some of these items in more 
detail than I, however, let me lay out in short order the key 
components I see as necessary, and then we can have a more in-depth 
discussion on any or all if you like.
    Regional Innovation Priorities for Growing the High-Tech Economy in 
North Texas.

        <bullet>  Continued federal leadership in funding basic 
        research, and regional leverage of federal and private research 
        in a collaborative model that stresses basic and applied 
        research science as well as commercialization results.

        <bullet>  Knowledge intensity--creating more tier one research 
        universities in North Texas, which the state laid the 
        groundwork for this past legislative session with the passage 
        of House Bill 51. It creates a system of incentives for those 7 
        public universities in Texas, 3 of which are located in North 
        Texas, to get awarded state dollars for successfully competing 
        for federal and private dollars, so that they can grow faculty, 
        research and facilities.

        <bullet>  Maintaining and enhancing an entrepreneurial culture 
        in both the public and private sector, one that is tolerant of 
        both risk and failure, and rewards success.

        <bullet>  The availability of early stage funding for 
        companies. While the ETF and the angel investment community in 
        North Texas have made a difference, the venture capital model 
        here and throughout the country is undergoing a transition of 
        funding availability, exit strategies, and pricing 
        expectations, with the result that there is a shortage of this 
        type of growth capital now. It is interesting to note that 20% 
        of all Americans work for a company that was at one point 
        funded with venture capital.

        <bullet>  The continued need for high-skilled immigration. With 
        a growing number of baby-boomers retiring out of our technology 
        industries over the next 10 years, and the fact that we don't 
        have enough U.S. born kids in the pipeline today to fulfill our 
        workforce needs, even in this current economic climate, the 
        tech industry needs to have the ability to recruit from abroad.

        <bullet>  A workforce development program that gets more U.S. 
        kids interested and engaged in science, technology, engineering 
        and math, and adequate numbers of teachers to teach and inspire 
        them. You'll certainly hear some great ideas and initiatives on 
        this from Mr. Luce.

    I hope the comments that I have shared with you today have been 
helpful and will assist you in continuing to craft and support a 
progressive federal policy on innovation. I want to particularly thank 
the Chairman, Congressman Gordon, for his leadership in passing the 
America Competes Act, and for Congressman Hall's persistent support of 
federal science and technology policy and for his constituents here in 
North Texas.
    I would be happy to answer any questions you might have, and thank 
you for having me here today.

                    Biography for William C. Sproull

    Sproull is President and CEO of the Richardson Chamber of Commerce, 
Metroplex Technology Business Council and the Richardson Economic 
Development Partnership. This unique and complex set of organizations 
he runs has two separate Board of Directors and a City Council to whom 
he reports.
    He has led the revitalization of Richardson's tech based economy 
through focus on diversification and technology start-ups. Sproull is 
credited with bringing two of the largest economic development projects 
announced in the U.S. to Richardson: A 5,000 employee Countrywide 
Financial operation in 2004, and a $3 billion Texas Instruments 
semiconductor factory in 2003. He also helped lead a statewide 
coalition that got legislation passed in 2005 to create the Texas 
Emerging Technology Fund, a half-billion investment fund.
    Previously he held the senior economic development positions at the 
Greater Dallas Chamber, the McKinney Economic Development Corporation 
and at the EDC of Kansas City, Missouri. Sproull is a graduate of 
Baylor University, where he received a B.A. degree with a double major 
in Economics and Political Science.
    Sproull is on the Boards of Directors of the International Economic 
Development Council, the University of Texas at Dallas Development 
Board and the North Texas Commission. He was reappointed by Texas 
Governor Rick Perry in 2009 to the Board of the Texas Emerging 
Technology Fund for his third two-year term and serves as Vice-Chair.
    Sproull's industrial recruitment experience was recognized by the 
editors of Site Selection magazine when they selected the $3 billion 
Texas Instruments project as the Top Development Deal nationally of 
2003, and in 1996 when he was recognized for the establishment of 
Blockbuster's 818,000 square-foot North American Distribution Center in 
McKinney. His teams have been selected three times by Site Selection as 
one of the top 10 development groups in the U.S. in 1994, 1997 and 
2004. He is also a two-time recipient of the American Economic 
Development Council's ``Best of Class'' marketing award.

    Mr. Hall. I thank you very much and thanks for answering 
the questions that we asked you to answer that were very, very 
important. And we'll now hear from Tom Luce. I don't have 
enough time to describe Tom. He's just a legend.
    And he and his family and friends are major players in 
everything that's good for this county and this part of the 
country and very, very helpful to me when I got under way in my 
political goals. And I still thank you again and again.
    I don't know if you did--you did me a wonderful lot of 
favors. I don't know if you did much for the country. We 
recognize you.
    Mr. Luce. Well, I did by helping you, Mr. Congressman.
    Mr. Hall. Well, I needed it. Thank you. We recognize you, 
Tom.

 STATEMENT OF MR. TOM LUCE, CHIEF EXECUTIVE OFFICER, NATIONAL 
                  MATH AND SCIENCE INITIATIVE

    Mr. Luce. Thank you, Mr. Chairman and Congressman Hall. 
Thank you for the opportunity. And I want to set the stage to 
talk about how do we leverage what's happening regionally and 
locally which we all know needs to be happening, but how do we 
then make that happen across the country because we have a 
national competitiveness issue.
    When I started on education reform in 1983, a report had 
just come out that said we were a nation at risk, a greater 
risk from the decline of our education system than we were from 
communism. And at the time, we were number one in the world in 
high school graduation rate and college graduation rate.
    Today, 25 years later, we are 14 and 15, and we said we 
were at risk in 1983. We won the Cold War. Capitalism 
prevailed. And we have three billion new competitors, and they 
are running very fast, and we are falling behind, period, 
paragraph.
    That to me is a national competitiveness issue. The issue 
we must confront is that we are trying to educate 55 million 
children in our public schools. 55 million.
    So when we have a local success which we have here in North 
Texas, and we have a program that works, and it helps 5,000 
students or 20,000 students, that's fantastic, but we have to 
learn how to help 55 million students.
    And the way we do that is by scaling proven programs. I 
like to say and I would say in addressing your specific 
question, one of the worse violators of this is the Federal 
Government. We have lit more pilot fires in this country, but 
we've never lit the central heat and air-conditioning system.
    We fund pilot program after pilot program after pilot 
program and yet we've got to stop and say, look, we're spending 
$3.5 billion to help K through 12 in math and science, but 
we're doing that through 125 programs.
    And we haven't stopped and said which are the best programs 
that we can take the 55 million kids. It may have to be 
implemented in a different way at Middle Tennessee and A&M 
Commerce, but what did we learn about the best way to educate, 
let's say, math and science teachers.
    So what we're about at the National Math and Science 
Initiative--my real nickname for our foundation is Scale Up, 
Inc. We want to scale proven programs. We've started with two; 
one is UTeach, which is a new way of training math and science 
teachers so that they have a true content degree in four years 
in the college of natural sciences and math. And they get a 
teaching certificate all in four years.
    You know, the question was raised, well, will other 
universities replicate a program started at another university? 
Well, we answered that in the first round of grants when the 
University of California at Berkley applied to replicate a 
University of Texas at Austin program.
    I can assure you that's an unnatural act for them to apply 
to replicate a University of Texas program. And yet we had 53 
universities apply to replicate that program which is 
recommended in the America COMPETES Act which you all passed, 
but there's not separate funding for that program.
    Through private sources, we have now taken that program 
thanks to TI, ExxonMobile, the Gates Foundation, the Dell 
Foundation--the private sector has invested $140 million, and 
we're taking that program now to 17 universities. But we have 
another 40 who have applied to do that; and if we could fund 
those 40, we could reach the goal that was in Rising Above the 
Gathering Storm of 10,000 teachers, we could do it.
    On our own in the 17, we'll produce 3,000. So the goal of 
10,000 is doable if we can get Congress to consolidate and 
focus on a few proven programs. In the high school arena, we're 
doing one program that encourages particularly minority 
students and convergent students and rural students to take and 
pass AP exams in math and science.
    In our first year of operation, we produced an increase in 
individual schools in six states, a 53 percent increase in the 
number of students taking and passing AP math and science 
courses in one year. The minority increase went up 123 percent. 
Why did it go up? Because we trained the existing teacher core 
to teach Advance Placement courses that are higher standard, 
critical thinking skills.
    And the data shows that if a high school student takes and 
passes one AP course, one in any subject, the college 
graduation rate for Hispanic students goes from 15 percent to 
plus 62 percent. African American students, 17 percent to plus 
60 percent.
    So we must concentrate on raising standards, raising 
expectations to produce the K-12 pipeline, and then we must 
produce the next generation of teachers. If there's one thing 
your Committee could do, it would be to urge NSF, Department of 
Energy, Department of Defense, all of these agencies to help 
with their funding for K-12 to get behind some of these 
programs and add their weight and help do it.
    For instance, the regional labs could have these UTeach 
teachers there in their summer program. They could have the AP 
students there. We've got to find a way to leverage the money 
that's being spent behind some volume, if you will, so that we 
can catch up quickly. We're falling behind very, very quickly.
    So that's what I would urge you to consider doing. We've 
proven that scaling works in our UTeach programs. From grant to 
enrollment of the first class only took three months for a 
university.
    Now, I think most people would agree if you give a grant to 
most universities, they'll spend a year or two forming a 
committee to decide the curriculum. We gave them the whole 
course and they enrolled 1,100 students in three months.
    That's the kind of quick progress we need to make and those 
are the kind of numbers that we need to address by finding out 
the best operating programs all over the country and scaling 
them with the help of Federal resources because if you invest 
$1 in the National Math and Science Initiative, the private 
sector's already investing, our state government is investing 
and your state, as you know it, Tennessee, the State of 
Tennessee is gonna pay to have two universities start the 
UTeach program.
    So the Federal Government has an opportunity to leverage 
state dollars, private dollars and local business dollars such 
as TI if we get behind and collaborate on some programs. Thank 
you very much.
    [The prepared statement of Mr. Luce follows:]

                     Prepared Statement of Tom Luce

    Mr. Chairman and Committee Members, thank you for the honor and the 
opportunity to testify before you today on the topic of innovation. I 
commend you on your leadership on this issue as well as your commitment 
to identifying best practices in business and education that will 
foster innovation, which is so essential to maintain our country's 
competitiveness in today's global economy.
    Brainpower has always been key to American economic power--from the 
cotton gin to the telegraph . . . from the light bulb to synthetic 
fabrics . . . from miracle drugs to the microchip. We have surged ahead 
for the last two centuries on the strength of our education system.
    But times have changed. Just 25 years ago, the U.S. led the world 
in high school and college graduation rates--today we have dropped to 
14th in high school graduations and 15th in college graduations among 
industrialized countries.
    Today U.S. students rank behind Canada, Japan and Western Europe in 
math and science--behind emerging Eastern European countries like 
Slovenia, Estonia and even tiny Liechtenstein.
    What has happened?
    Some of you may be tennis fans and followed the recent U.S. Open 
competition--for the first time since they've had rankings in that 
premier tennis championship, there was only one American in the quarter 
finals. Was that because American tennis players have gotten worse? No, 
it's because other countries have gotten better. The same thing applies 
to education--we now face more competition from people in the former 
Soviet bloc and from people in the rising countries that used to be 
called Third World countries. We now are faced with billions of new 
competitors who are vying to beat us at our own economic game.
    The warning signs are all around us: In the 1990s, the U.S. economy 
created around 2.2 million jobs a year. But from 2000 to the end of 
2007, the rate dwindled to only 900,000 a year. Our growth engine is 
running out of fuel. Nearly 60 percent of U.S. Patents in information 
technology now originate in Asia. Only six of the top 30 companies in 
the world for solar power, wind power and battery development are 
American. Just as science and technology are fueling new growth around 
the world, the number of American engineers and scientists graduating 
has declined-by 20 percent.
    As one of my colleagues put it the other day, we are producing more 
science in the world today than ever before-but we are teaching less 
science in the U.S. than ever before.
    We must do better. We believe the key ingredient to improving 
innovation--and stimulating high-value job creation--in the U.S. is 
improving the math and science education our young people receive. If 
you think about it, almost every major innovation that we need to 
pursue as a nation--medical breakthroughs, economic growth, renewable 
energy sources, homeland safety and security or space exploration--
requires the new standard of literacy in STEM fields: science, 
technology, engineering and math. As a result, we need a vastly 
increased pipeline of highly qualified math and science teachers and 
students who are excited about science, technology, engineering and 
math, to keep the U.S. from losing ground to its foreign competitors.
    Two years ago, we established the National Math and Science 
Initiative to address this critical need. We identified specific 
programs with proven results that would directly and significantly 
improve math and science education in the U.S. We then leveraged the 
investment of both the public and private sectors to replicate the 
programs across the country. And we have already seen tremendous 
results.
    The Advanced Placement Training & Incentive Program is based on a 
model that was initiated in Dallas more than 12 years ago. This program 
focuses on bringing more rigorous coursework to more students as well 
as increasing teacher effectiveness and student achievement. And we 
know it works.
    Last year, we implemented this program in 67 high schools in six 
states, including Alabama, Arkansas, Connecticut, Kentucky, 
Massachusetts and Virginia. In just the first year, we have 
dramatically increased the number of public high school students 
enrolling in college-level courses, as well as those taking and passing 
AP exams in math, science and English.

        `  Our Year One data, which was released last month, 
        demonstrated a 52 percent increase in AP exams passed in the 
        2008-09 school year. This is more than nine times the national 
        average.

    Equally important, the results show that NMSI has helped close the 
achievement gap in math and science, particularly among under-
represented students.

        `  For example, we recorded a 134 percent increase in AP math, 
        science and English exams taken by African American and 
        Hispanic students, in addition to a 72 Percent increase in AP 
        exams passed by these students.

    We have essentially helped to eliminate the barriers to entry to 
rigorous coursework, which bodes well for American students. Passing AP 
exams is directly correlated with a significant increase college 
graduation rates.
    The UTeach program is based on a model developed by the University 
of Texas at Austin. UTeach is an innovative teacher preparation program 
that transforms the way colleges and universities recruit, prepare and 
inspire new math and science teachers.
    In the 2008-09 school year, NMSI partnered with colleges and 
universities in 13 states to enroll more than 1,100 math and science 
undergraduate majors in the UTeach program. We anticipate that this 
first cohort of future math and science teachers will impact more than 
one million students over the course of their teaching careers.
    In Texas, NMSI is proud to partner with and implement the UTeach 
program at the University of Texas at Dallas, the University of North 
Texas, the University of Texas at Tyler and University of Texas at 
Arlington. We know that this innovative program will produce 
outstanding math and science teachers who can transform education here 
in our own state and contribute to our region's and state's long-term 
economic growth and prosperity.
    We believe this kind of public-private model that NMSI has put 
together is the way of the future. We are grateful to have corporate 
support for our work--including Texas Instruments, Exxon Mobil 
Corporation and the Michael and Susan Dell Foundation--and to have 
strong support from state agencies such as the Texas Education Agency 
and national organizations like the National Council on Teacher 
Quality. These public private partnerships have allowed us to leverage 
limited resources to achieve incredible and sustainable gains in a 
short time.
    Going forward, it will take continued collaboration and dedicated 
resources on a national level to multiply this success, and we commend 
federal legislators and policymakers on making STEM education a 
priority. The federal government has a leading role to play in turning 
the tide in STEM education in our country. You can fund educational 
programs with a proven record to create regional centers of excellence 
and innovation like we're working to build here in North Texas.
    Taking proven educational programs and replicating them nationally 
will require a significant commitment. But we must be prepared to 
invest in the next generation. This is not a theoretical issue, it is 
about changing lives and giving the next generation the survival tools 
to compete in today's global marketplace.
    You can't put a price tag on that. We must do what it takes to 
educate a modern workforce, keep our country competitive, and provide a 
quality of life for our children and their children.
    NMSI is proud to be part of the solution by tapping into the 
unrealized math and science potential of our young people. With your 
leadership, we are confident we can equip our young people with the 
education they need, help our country work smarter and help America 
lead the way again in innovation.
    Thank you for focusing on this urgent challenge, and I look forward 
to answering your questions.

                         Biography for Tom Luce

    Tom Luce is the CEO of the National Math and Science Initiative, a 
non-profit dedicated to expanding programs with a proven impact on math 
and science education in order to help the U.S. maintain its leadership 
position in the global economy. Mr. Luce served as United States 
Assistant Secretary of Education for Planning, Evaluation and Policy 
Development from July 1, 2005 until September 1, 2006. At the 
department, Mr. Luce championed policies that would enhance American 
competitiveness.
    An attorney, Mr. Luce received his undergraduate and graduate 
degrees from Southern Methodist University and has been honored with 
the SMU Law School and University Distinguished Alumni Awards. He was a 
founding partner and managing partner of the law firm of Hughes & Luce, 
LLP until his retirement from the firm in 1997.
    In addition to his law practice, at various times Mr. Luce has 
served on the boards or as guest lecturer at a number of schools of 
higher education, including the Kennedy School of Government at Harvard 
and the LBJ School of Public Affairs at The University of Texas at 
Austin.
    Following his resignation from the Department of Education, Mr. 
Luce rejoined the board of Dell Inc. He previously served on the Dell 
board from 1991 until 2005. He also has served on the boards of the 
Texas Education Reform Caucus and multiple community and charitable 
organizations. He served as a member of the National Commission on 
Teaching and America's Future and on the Executive Committee of the 
Dallas Citizens Council, an organization composed of CEOs of Dallas's 
largest businesses. In addition, the United States Senate appointed Mr. 
Luce a member of the Library of Congress Trust Fund Board where he 
served until 2005.
    Mr. Luce also has been appointed five times to major posts by Texas 
governors, including Chief Justice pro tempore of the Texas Supreme 
Court. He is perhaps best known for his role as the Chief of Staff of 
the Texas Select Committee of Public Education, which produced one of 
the first major reform efforts among public schools in 1984.
    Mr. Luce was a co-founder of the National Center for Educational 
Accountability and served as Chairman of the Board from its inception 
until 2005. He also founded Just for the Kids and served as its 
Chairman until 2005. In 1995 Mr. Luce wrote Now or Never How We Can 
Save Our Public Schools, a book that defined his educational philosophy 
and outlined a preliminary plan for educational reform that called for 
broader support for public education. His second book, Do What Works, 
was published in December 2004 and received numerous positive reviews.
    Mr. Luce and his wife Pam live in Dallas, Texas. Together they have 
three children and seven grandsons.

    Mr. Hall. Mr. Chairman, that completes the testimony. 
That's the major purpose that we're here was to extract from 
you the knowledge that made you successful and cause us to look 
to you for leadership here. Mr. Chairman, I yield to you. We 
have 15 minutes. We have to be on an airplane.
    Chairman Gordon. Okay. Let me then--I'll try to--let me 
make a quick statement, then I have a couple questions. 
Interestingly, Mr. Luce, we are on the same wavelength in a lot 
of ways.
    I certainly agree with you in terms of scaling out 
successful existing programs. For over a year now, we've had a 
fellow on the Committee that's been working to try to ferret 
out the various math and science programs across at least those 
areas of the jurisdiction we have.
    If you just go to the budget line and look under math and 
science education or somewhere, you find it's just the tip of 
the iceberg. We have found a number of programs with little or 
no coordination whatsoever.
    So we're continuing our effort to try to inventory those, 
at which time we then want to come out as we did with 
nanotechnology and some other areas where we're looking at a 
coordinating council across all agencies that is--we might even 
potentially give them some priorities.
    The main thing is, let's coordinate. Where is all this 
money? How is it being spent? Can it be incorporated in a 
better way? Can we be focused in a better way? A part of making 
a larger investment in the math and science is spending the 
money that we do better. So we are undertaking that.
    I think you will see if not the remainder of this year, 
certainly first of next year we will have an initiative that 
will settle that umbrella operation.
    Dr. Izzard, let me ask you--first let me say that you are 
an example of why we want to continue to bring the best and 
brightest around the world here to create more jobs for us. I 
think we all recognize that getting a continuing education 
beyond high school provides a variety of benefits, but with 
unemployment approaching 10 percent, one of those benefits is a 
job.
    Now, from your standpoint, what are the skills, you know, 
working with our higher education institutions, what do they 
need to be providing in terms of work force? What are the 
skills that you need so we can have the jobs for our kids when 
they're coming out?
    Dr. Izzard. You know, I think that actually when I look at 
the STEM program--I recently got involved in it maybe a year or 
ago myself. I think those are the fundamentals. To me, if I 
look at the STEM program, it hits--and actually, often 
mathematics is left at the end of the acronym, and I prefer to 
put it near the front. Mathematics I think is the fundamental 
model that we use to understand the world around us and, you 
know, engineering is built on top of mathematics, and science 
is built on top of mathematics.
    And I think that if we focus on that, on giving people the 
language the technologies are built on, if we give people a 
strong grounding in mathematics, I think that's the key and 
engineering and science and technology follow.
    So in my part of the world and my view of the commerce, 
it's all technology or Internet. The folks who we need to have 
fit into our work force fundamentally are people with a good 
fundamental understanding. And that begins at school. That 
begins in K through 12.
    And, you know, I hear the commentary about somebody who 
gets--passes one AP class has tremendously increased execution 
in college. That doesn't surprise me. You know, in my view, 
success breeds success. People are successful early, it gives 
them the confidence to run faster and faster.
    You have to catch them early when people are missing any 
piece of the underpinning. And a lot of the time it's 
mathematics, then they lose the confidence to continue to grow 
faster and faster.
    Chairman Gordon. Well, one thing that Mr. Luce noticed and 
has awakened us to recognize and that is, you have to have your 
teachers on STEM education and math courses who better 
understand those courses.
    My father was a good example. He was a farmer. He went to 
World War II. And when he came back, he wanted to be a better 
farmer. So he went on the GI bill to MTSU in my hometown and 
got a degree in agriculture.
    When my mother--when I was born, she was working in a 
cafeteria. And she lost her job and so my father had to get a 
second job. So he applied to teach high school, and he got the 
last teaching job at Smyrna High School.
    Since he was the last one hired, he was required to teach 
high school science and coach the girls' basketball. And I'm 
not sure which he knew the least about. You know, we're trying 
to make some changes now, and we know we've got to get to those 
teachers.
    But I guess the question that I have I'll to ask Mr. Luce 
and all of you, we understand and it's fairly easy, I guess you 
would say, just putting money behind it, taking existing 
teachers like my father and bringing them back to school and 
helping them to get a better core education but--and we know 
we're setting up programs for those new teachers, the next 
generation that will go into math and science and education 
degree to teach.
    But what do we do to encourage those students when they're 
freshman or sophomores to get into these programs before they 
teach?
    Mr. Luce. Well, one thing they do under UT's program, which 
has been remarkably successful, is they simply--and that's one 
of the things we fund--they say to an interested student who 
comes to College of Natural Sciences or Math, ``we'll give you 
a free two-hour course,'' which is in effect practice teaching.
    They take them into the classroom the freshman year. They 
get a free two-hour credit because we want them to be exposed 
to the classroom. But we also find--and this has fantastic 
results in UT's program--what is remarkable is all the 
graduates in the past 11 years from the UT Austin program, 85 
percent are still teaching five years later.
    In other words, they stay in the classroom. The reason they 
stay in the classroom is they're not frustrated. They've 
learned content knowledge. They can make a youngster's eyes 
light up, so they get excited about it because it is a basic, 
you can't teach what you don't know.
    And if you're trying to stay a day ahead of the student, 
it's very hard to inspire students in math and science and, 
therefore, producing teachers that have content knowledge is 
terribly important.
    I think the other thing that happens, Congressmen--it's 
hard to prove this with data. The students are more likely--
this younger generation wants to serve. Well, having the 
security of having a STEM degree, if they don't like teaching, 
gives them great confidence to go try teaching because they 
know if they decide to drop out of teaching, they can go get a 
job at Hie or TI.
    But with that content degree, they have the confidence and 
they end up liking to stay in the classroom.
    Chairman Gordon. Dr. Jones, have you had any success or any 
models on getting, again, those freshmen and sophomores that 
want to go into these programs?
    Dr. Jones. I think one of the best investments you can make 
to increase both the production and retention of young teachers 
is to invest in summer programs, because typical students who 
are coming through as undergraduates, you know, they go for the 
year and then in summer they go off and try to find a job at 
McDonald's or something so they can earn enough money to come 
back for a better job.
    But we have a couple of programs, the research experience 
for undergraduates, where we pair faculty members with 
undergraduate students and they engage in actual research 
projects. And it's not make-believe research. It's not kind of 
meta-gospel research.
    It's pairing them as research assistants at an early point 
in their academic career. And that raises their aspiration 
level. It raises their imagination. It stimulates the 
imagination. And there are some programs out there.
    A wonderful program we're applying for this year from NIH, 
it's called Bridges to the Baccalaureate. And it's aimed at 
tackling one of the most vexing problems that we face and that 
is how do we get students to start at Collin College, get their 
associate's degree and encourage them to transfer and complete 
their bachelor's and even go on for masters.
    And this program targets those students. It gives them 
positive summer experiences. It pairs our faculty with 
community college faculty. And it produces results. The problem 
is only six new programs are being funded this year in the 
current cycle.
    So this is an example that some of my colleagues here have 
testified, if we want to go with proven programs, this is one 
that works. It creates positive summer experiences for 
undergraduates. It turns them into scientists and engineers and 
teachers in those fields and with additional funding, we can 
scale it.
    Chairman Gordon. Just for your information, there are some 
programs being set up now with national labs for both high 
school teachers as well as--both for the teachers to come in, 
hopefully get excited about what they're doing and then take 
that excitement back home, and then also for undergraduates to 
come in to the national labs to see what's going on.
    Dr. Israel. Mr. Chairman.
    Mr. Hall. Yes, sir.
    Dr. Israel. I'd like to look at something we might be 
missing. I don't know if the UTeach program is in any community 
college, but we'd really like UTeach to be at Collin County 
Community College. The pipeline for higher education in this 
country is the community college.
    Chairman Gordon. Well, in the COMPETES field, we recognize 
that, and there are some specific programs for it.
    Dr. Israel. Right, I understand. But what we're talking 
about, we have a Center for Advanced Studies in Mathematics and 
Natural Sciences that specializes in highly motivated students 
in math and natural sciences. They do undergraduate research.
    Our institution, when I came here 10 years ago, we couldn't 
even offer any type of degree in teaching, and now in the State 
of Texas we can have an Associate of Arts in Teaching. Seventy 
percent of all undergrads in Texas started at community college 
freshman and sophomore.
    Seventy-eight percent of all minority undergraduates 
started at community college. Nationwide we're approaching 50 
percent. We don't start linking community colleges a little bit 
better with some of these major wonderful initiatives that have 
been talked about, I think we're going to have a problem 
getting the people at this level because we're talking about K-
12.
    We're talking about universities, but we're missing the 
boat and that's the community colleges. And how can you create 
a two plus two plus two so that we can get all these 
individuals to have the STEM degrees that we're working on.
    Mr. Luce. Mr. Chairman, I would just point out that our 
program at the University of Kansas has formed an alliance with 
a community college in Kansas. They will be part of the program 
this year. So we recognize what you said in the America 
COMPETES Act.
    Mr. Hall. Mr. Chairman, with your permission, we'd like to 
leave the record open to where we might want to--with these 
bright youngsters that we have with us today, I think some 
things that we've missed and inquire where we can put them on 
the record. Can that be done.
    Chairman Gordon. Certainly.
    Mr. Hall. And I just say to Tom, thank you for your 
discussions. And for the amount of money you're asking for with 
the huge amounts that they're playing with up there now, more 
money than I've ever seen in any vision of government, like the 
bailout, that first bailout, $800 billion.
    They lose more money than you're talking about going from 
doggone committee room to the next up there. And it's a shame 
that we can't tie into them. And you tie into them with 
information that y'all have provided here. That's the way we 
write bills based on what people smarter than we are and more 
intelligent than we are to give us the information.
    And I want to thank you for that. I guess that's probably--
--
    Chairman Gordon. Well, I'd like to open up one more little 
area, if I could, please. Mr. Humm, you had talked about the 
difficulty in getting through, for lack of a better term, 
bureaucracy, in terms of different types of plans at DOE.
    And maybe you and Dr. Izzard could give us some 
suggestions. On the one hand, we certainly want to be and we 
have the responsibility to be good stewards on the taxpayer 
dollars, and so we can't just say here's a check, you know.
    How do we mix that combination of trying to be good 
stewards while at the same time not overburdening those 
individuals, whether through RFPs or whatever it might be, to 
be able to come in with a good idea and to get funding.
    Mr. Humm. Well, thank you very much for the question, 
Chairman Gordon. Our efforts over the last really three years 
have been focused on getting, you know, what's know as DIACAP/
NIACAP certification from the Department of Defense as well as 
Federal networks.
    Now, to typically get into that certification process, you 
have to have a customer on the inside who wants to pull the 
product in. And that gateway may be controlled by a large 
defense contractor who's got a capability contract, and so 
you've got to engage with that guy who's got a trench dug 
across his profit line and he's not gonna let you cross for 
hell or high water.
    So we finally were able to get through that barrier by 
engaging with the Air Force Surgeon General on a very important 
project associated with traumatic brain injury research for our 
returning Iraq wounded. 65 percent of the Iraq wounded have had 
their head shook up.
    Chairman Gordon. So once you sort of breakthrough, get the 
certification in one area, it goes for everything----
    Mr. Humm. It's still so slow.
    Chairman Gordon. So what's the better way to do it?
    Mr. Humm. Personally it would help our company to get a 
green technology fast-track certification that relies on 
Federal agencies, very similar to how the hybrid automobiles 
were selected for the Federal agencies.
    There was a core group of product that was certified. They 
went in to the GSA schedule and the other procurement processes 
as being authorized or certified.
    And so if we're going to beat this energy stranglehold 
that's been placed on us by energy consuming data processing 
products that may consume 24,000 watts an hour and probe 44,000 
BTUs a piece, you have to have two V16 diesel generators----
    Chairman Gordon. Let me--I'm trying to get to more--thank 
you. I don't mean to----
    Mr. Humm. No, you're fine.
    Chairman Gordon.--be disrespectful. But how about, Dr. 
Izzard, do you have any kind of bureaucratic horror stories in 
any way that anything we might do to be able to streamline this 
process to make you more efficient.
    Dr. Izzard. A few comments and, you know, I guess that I'd 
start by saying that how to access government research money 
right now is an active discussion inside TI, but I'll be also 
completely honest and say that, you know, we wring our hands 
about it because over the years that we focused on being a 
diversified company with both systems and semiconductor 
components, we've become more and more of a focused 
semiconductor company.
    We've consciously relied or found ourselves relying on our 
own funding of research and development. I told you some of the 
numbers. We very much appreciate the government tax credit for 
the research and development that we do.
    But actually accessing direct funding is something that 
only the reason is the debate given the availability of 
stimulus funding. And we are examining actively, but we have 
only very small programs in place right now and that is because 
we found that it's really necessary for us to work as sub-
contractors to folks who already have the appropriate 
certification or mechanisms in place working with government 
funding.
    So I don't have any specific recommendations to you; but if 
it could be made easier to do, I think we'd certainly be 
interested in it, you know.
    Chairman Gordon. Well, I guess one area in particular comes 
to mind with you as I mentioned earlier, we passed the National 
Nanotechnology Initiative. There's about $3.5 billion dollars 
being spent on nanotechnology across six different agencies. We 
want to better focus that.
    One of the things that we did was to talk about 
nanotechnology in the next, you know, once they're going to 
come after the citizenship. So I would hope that we can make 
that public/private type of effort together.
    Dr. Izzard. And I'll add a comment that you remind me of 
about the Nanotechnology Initiative. I also really appreciate 
the darker support of the Semiconductor Research Corporation, 
something I am involved in in a way in which government funding 
can be brought to bear on helping private funding, provide 
research dollars.
    And, you know, for me also specifically I'd like to comment 
that while many people are concerned about the high risk side 
of research because often research doesn't directly produce 
technology, or by definition high risk, means not many times 
does your research money turn in to revenue money. But one of 
the things I want to comment on is that one of the guaranteed 
offerings of research programs--we saw it come up in our 
education discussion.
    One of the guaranteed offerings of research money is well-
educated people. So while we should continue on focusing 
towards getting innovations out of our research, we should 
remember that even when projects fail, it provides really well-
educated people for us.
    Chairman Gordon. Well, thank you. Mr. Hall's telling me 
that--I guess some of you are old enough to remember Bulla 
Bufford. I think Bulla has passed. But we want to continue 
these discussions.
    I mean, but to me, what I see here as the common 
denominators is that there does need to be a public/private 
partnership to create that work force. There does need to be a 
public/private partnership I think in the research area and 
that there are some things that are basic research that you're 
gonna have to have some federal help to get started.
    But we need to get the private sector involved early enough 
so whether it's the mountain or the valley, that we get over 
that. And the sooner we get them involved, the easier it is to 
make that application on out to jobs is what we want in the 
work force format. So thank you all for this stimulating 
conservation and, again, we'll continue that.
    Mr. Hall. Yeah. And thank you for your very valuable time. 
I wish we had more time. Dr. Israel, you helped on my question 
about the primary goals of the COMPETES Act and what you're 
doing about that. We could go into that at length.
    I'd like some time to know more about why we're not 
producing as many engineers; seven to one from China or three 
or four to one from India and others. Those are things that 
maybe we'll go in to the next time we get a group like this.
    Maybe you come to DC and testify for us at the Chairman's 
invitation. Thank you, Mr. Chairman. Thank you and thank you 
again. And thank everybody that appeared here.
    [Whereupon, the Committee was adjourned.]

                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions
Responses by Dr. Cary A. Israel, President, Collin County Community 
        College District

Questions submitted by Representative Ralph M. Hall

Q1.  You mentioned in your testimony the importance of community 
colleges in supporting a strong technical workforce. We hear a lot in 
Washington about the importance of producing more scientists and 
engineers with advanced degrees, but there is a tendency to overlook 
community colleges. How is the Federal government--and the National 
Science Foundation in particular--doing at targeting programs and 
activities in this area, and is there anything that can be improved 
upon?

Q2.  One of the primary goals of the America COMPETES Act was to get 
more students interested in and prepared for pursuing math and science 
degrees at the college level. In your observations, are we doing a 
better job at this and are the Federal government's programs helping? 
Do you recommend any policy or program changes to improve upon these 
efforts?

Q3.  One of the issues that we have been considering in Congress is the 
affordability of higher education, and student loan programs in 
particular. Please share your thoughts on the challenges you face in 
keeping your tuition costs affordable and any advantages or 
disadvantages you have as smaller schools in keeping costs down and 
attracting students.

Dr. Israel had not submitted responses by the time the hearing report 
        went to press.
                   Answers to Post-Hearing Questions
Response by Dr. Dan Jones, President, Texas A&M University-Commerce

Questions submitted by Representative Ralph M. Hall

Q1.  One of the primary goals of the America COMPETES Act was to get 
more students interested in and prepared for pursuing math and science 
degrees at the college level. In your observations, are we doing a 
better job at this and are the Federal government's programs helping? 
Do you recommend any policy or program changes to improve upon these 
efforts?

A1. Data provided from the Texas Higher Education Coordinating Board 
indicate our institution has increased declared majors each year from 
2007 to present in mathematics, biological sciences, and physical 
sciences. Therefore, I believe we are doing a better job and that the 
Federal government's programs are helping, although whether this is a 
causal relationship is difficult to determine without further analysis. 
I do believe our institution needs to be more aggressive in securing 
funding provided through this legislation. The only policy or program 
change I would recommend is an investment in more programs similar to 
Project STEEM that targets middle and high school students from rural 
school districts. I completed the Project STEEM final report and can 
send that to you if you would like. The major finding is that bringing 
high aptitude students together and providing a peer support network is 
critical to motivating students from rural school districts to pursue 
STEEM degrees.

Q2.  One of the issues that we have been considering in Congress is the 
affordability of higher education, and student loan programs in 
particular. Please share your thoughts on the challenges you face in 
keeping your tuition costs affordable and any advantages or 
disadvantages you have as smaller schools in keeping costs down and 
attracting students.

A2. The full Federal Pell grant award of $5,350 for the 2009/2010 
academic year at our university completely covers tuition and mandatory 
fees for an undergraduate resident student enrolled as a full-time 
student (12 credit hours). However, many of our students are 
nontraditional and are responsible for also providing for themselves 
and families. STEM courses are often difficult and require additional 
study and research. Many capable students shy away from these majors 
and look for the shortest path to the degree. Subsidized and 
unsubsidized loans are not adequate to supplement income and provide 
for families. Independent students qualify for up to $9,500 ($3,500/
$6,000 unsubsidized) for their first year. Dependent students qualify 
for $5,500 for their first year. The amount increases to a maximum of 
$12,500 for third year and beyond for independent and $7,500 for 
dependent students (with a lifetime limit of $31,000 for an 
undergraduate dependent and $57,500 for an independent). Increasingly, 
we are seeing many students who do not qualify for Federal financial 
aid benefits because their parents choose not to complete the FAFSA 
and, yet, these students are responsible for all of their living 
expenses. The U.S. Department of Education considers a student a 
dependent up until the age of 24 except in certain circumstances.
    Small institutions struggle with maintaining a tuition and fee 
structure that is affordable for its student population and providing 
financial resources to attract and retain quality students capable of 
being successful in the STEM disciplines.
    Competition for outstanding faculty in areas such as science and 
business is intense. The supply of experienced professionals with 
terminal degrees is small. This drives up human resources costs as 
universities compete for the best people.

                   Answers to Post-Hearing Questions
Response by Patrick Alan Humm, P.E., Chairman and President, Hie 
        Electronics

Questions submitted by Representative Ralph M. Hall

Q1.  You outlined some very high goals for Hie Electronics in your 
testimony, and you talked about some of the challenges you face as a 
small startup company trying to raise capital and sell your product. 
What are the most important next steps for your company to be 
successful and grow to the next level?

A1. One of the most important next steps is to gain additional capital 
for product manufacturing, product marketing, and further product 
development.
    As the administration seeks to build green jobs, Hie Electronics, 
an American-based manufacturing company with 35 employees, is exactly 
what the country is identifying as important to our nation's economy. 
As a green job provider in an energy management technology, we would 
like to be considered for Federal small-business hiring and investment 
incentives. This could be key to our growth over the next five years as 
we move from the start-up phase to small business.
    One possible example for Congress' larger consideration is how 
Singapore helps new technology companies with considerable tax 
incentives, including double depreciation on first year capital 
expenses.
    Tax policy favoring investment by individuals in companies like 
ours can help in the formation of capital. In this economy, stimulus 
matching funds equal to the amount of private equity invested in 
``Emerging Technology Development'' or ``Green Tech'' could go a very 
long way towards the creation of jobs in this sector. Tax deductions or 
double investment incentives given to companies after they purchase 
Green Data Storage devices are another idea.
    An additional example relevant to your committee, while ARPA-E 
promotes national innovation in the energy sector, our hope is that 
ARPA-E's scope will move to fully include technologies like ours which 
will reduce national energy consumption (our TeraStack Solution can 
reduce data storage power consumption from 60 to 90%). We look forward 
to attending the ARPA-E conference scheduled in March to learn more.

                   Answers to Post-Hearing Questions
Response by Dr. Martin Izzard, Vice President and Director, Digital 
        Signal Processing Solutions R&D Center, Texas Instruments

Questions submitted by Representative Ralph M. Hall

Q1.  Please elaborate on the high risk research ``Kilby Labs 
Initiative'' that you mentioned in your testimony? We sometimes hear 
that companies are moving away from high-risk research as a result of 
the short-term pressure to turn a profit. Is it difficult to justify an 
investment like this on the balance sheet, and how will you measure the 
success of this initiative given the high-risk nature of the research?

A1. The justification in financial terms for a high-risk initiative is 
difficult, but we achieve this by keeping the effort affordable (about 
1% of our technical workforce is employed at any one time in the 
initiative) and by observing that, while the chance of achieving a 
breakthrough is small, the payoff can be large, and so we should not 
``do nothing.''
    The success will be measured in two ways: impact on products both 
existing and new and development of the workforce. While the first 
outcome is uncertain, the second outcome is almost guaranteed since we 
will use a mechanism of rotating engineers who wish to try a high-risk 
idea in and out of the Labs and during their tenure, they are bound to 
learn and get new perspectives.

                   Answers to Post-Hearing Questions
Response by Tom Luce, Chief Executive Officer, National Math and 
        Science Initiative

Questions submitted by Representative Ralph M. Hall

Q1.  One of the primary goals of the American COMPETES Act was to get 
more students interested in and prepared for pursuing math and science 
degrees at the college level. In your observations, are we doing a 
better job at this and are the Federal government's programs helping? 
Do you recommend any policy or program changes to improve these 
efforts?

A1. We are doing a better job but are far from accomplishing the 
preparation of a sufficient number of students in the K-12 pipeline who 
are prepared to pursue math and science degrees at the college level. 
It is our experience that the most efficient and effective way to 
increase this pipeline is to replicate the Advanced Placement Incentive 
and Training Program into more high schools in our country. The 
National Math and Science Initiative has demonstrated that replication 
can work and the limitation to expansion at this time is money.

Q2.  You noted in your testimony that your goal is to replicate the 
success of the National Math and Science Initiative nationally. Aside 
from funding, what are the biggest obstacles and/or most important 
elements to achieving this?

A2. Aside from funding, the biggest obstacle is the lingering belief 
that our students cannot achieve at higher standards, notwithstanding 
the evidence to the contrary achieved by the National Math and Science 
Initiative.

                                   

</pre></body></html>
